<html>
<title> - ADDRESSING THE IMMIGRATION STATUS OF ILLEGAL IMMIGRANTS BROUGHT TO THE UNITED STATES AS CHILDREN</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
ADDRESSING THE IMMIGRATION STATUS OF ILLEGAL IMMIGRANTS BROUGHT TO THE 
                       UNITED STATES AS CHILDREN 

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2013

                               __________

                           Serial No. 113-33

                               __________

         Printed for the use of the Committee on the Judiciary

      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

82-156 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001




                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                     TED POE, Texas, Vice-Chairman

LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
MARK AMODEI, Nevada                  JOE GARCIA, Florida
RAUL LABRADOR, Idaho                 PEDRO R. PIERLUISI, Puerto Rico
GEORGE HOLDING, North Carolina

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel



                            C O N T E N T S

                              ----------                              

                             JULY 23, 2013

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Chairman, Subcommittee on 
  Immigration and Border Security................................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security................................     3
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     5
The Honorable Joe Garcia, a Representative in Congress from the 
  State of Florida, and Member, Subcommittee on Immigration and 
  Border Security................................................     6
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Member, Subcommittee on Immigration and 
  Border Security................................................     7
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Member, Subcommittee on 
  Immigration and Border Security................................     8
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and Member, Subcommittee on Immigration and 
  Border Security................................................     9
The Honorable Raul Labrador, a Representative in Congress from 
  the State of Idaho, and Member, Subcommittee on Immigration and 
  Border Security................................................    10

                               WITNESSES

The Honorable Mike Coffman, a Representative in Congress from the 
  State of Colorado
  Oral Testimony.................................................    11
  Prepared Statement.............................................    13
The Honorable Jeff Denham, a Representative in Congress from the 
  State of California
  Oral Testimony.................................................    14
  Prepared Statement.............................................    16
The Honorable Cory Gardner, a Representative in Congress from the 
  State of Colorado
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20
The Honorable Luis V. Gutierrez, a Representative in Congress 
  from the State of Illinois
  Oral Testimony.................................................    22
  Prepared Statement.............................................    28
Barrett Duke, Ph.D., Vice President for Public Policy and 
  Research, The Ethics and Religious Liberty Commission of the 
  Southern Baptist Convention
  Oral Testimony.................................................    33
  Prepared Statement.............................................    34
Margie McHugh, Co-Director, National Center on Immigration 
  Integration Policy, Migration Policy Institute
  Oral Testimony.................................................    36
  Prepared Statement.............................................    39
Pamela Rivera, Washington, DC
  Oral Testimony.................................................    47
  Prepared Statement.............................................    48
Rosa Velazquez, Arkansas Coalition for DREAM
  Oral Testimony.................................................    49
  Prepared Statement.............................................    51

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Luis V. Gutierrez, a 
  Representative in Congress from the State of Illinois..........    24
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................    70


ADDRESSING THE IMMIGRATION STATUS OF ILLEGAL IMMIGRANTS BROUGHT TO THE 
                       UNITED STATES AS CHILDREN

                              ----------                              


                         TUESDAY, JULY 23, 2013

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 2:30 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Trey 
Gowdy (Chairman of the Subcommittee) presiding.
    Present: Representatives Gowdy, Goodlatte, Poe, Smith, 
King, Jordan, Amodei, Labrador, Holding, Lofgren, Conyers, 
Jackson Lee, Gutierrez, and Garcia.
    Staff Present: (Majority) Andrea Loving, Counsel; Allison 
Halataei, Parliamentarian & General Counsel; Graham Owens, 
Clerk; (Minority) Tom Jawetz, Counsel; and Maggie Littlewood, 
Clerk.
    Mr. Gowdy. Good afternoon. The Subcommittee on Immigration 
and Border Security will come to order. Without objection, the 
Chair is authorized to declare recesses of the Committee at any 
time. This is a hearing entitled ``Addressing the Immigration 
Status of Illegal Immigrants Brought to the United States as 
Children.'' We welcome all of our witnesses today. Both panels. 
And we will get to our witnesses momentarily.
    When Chairman Goodlatte had the first immigration hearing 
months ago, I said we were looking for a remedy that would last 
a lifetime. A real remedy, not a political or electoral remedy, 
but a real remedy that is best for our country. And I said I 
thought we could find a synthesis or a harmony, if you will, 
between the compassion that defines us as a people and the 
respect for the rule of law that defines us as a republic.
    The House Judiciary Committee has since held nearly a dozen 
hearings on different aspects of our immigration system and 
passed four bills, including legislation to strengthen interior 
enforcement and ensure the laws we pass are actually enforced. 
We know border security and interior enforcement are the only 
guarantee that we will not repeat the mistakes of the past.
    The issue of how to treat children brought to this country 
is not new. Congress has considered it since at least 2001, but 
it is a new issue for this Congress and several Members of this 
Subcommittee. We all view children as a special protected 
class. We have all witnessed acts of heroism where total 
strangers risk and sacrifice their lives for other people's 
children. We admire teachers and other professionals who 
dedicate their lives to teaching and helping other people's 
children. Children and the issues that impact their lives unite 
us like nothing else. And because children are a special class, 
the law treats children differently in almost every regard.
    When children wander into neighborhood yards, we don't call 
that trespassing. When children cry and yell and scream at 
restaurants or on airplanes, we don't call that a violation of 
the noise ordinance. When children eat a grape at the grocery 
store or eat piece a candy waiting in line before Mom or Dad 
pays for it, we don't call that petty larceny. Children can't 
sign contracts, they can't vote, they can't purchase certain 
items, they can't even work in some instances because the law 
treats children differently. Even when children do get in 
trouble, legally, the system is completely separate. Even the 
purpose of the system is different. The purpose of the adult 
justice system is to punish; the purpose of the juvenile 
justice system is to rehabilitate and to restore.
    The law treats children differently for a variety of 
reasons, including the fact that children cannot form the 
intent necessary to violate the law. And intent is a necessary 
element of every criminal offense. Simply put, children who 
were brought here hadn't committed a crime, misdemeanor or 
otherwise. The adults may have, but the children have not. And 
that is not an expression of compassion, that is the execution 
and the application of the law.
    There are an estimated 1.35 million undocumented children 
under the age of 18 and an estimated 1.6 million between ages 
of 18 to 24 in this country. In recent months, I have heard 
from many organizations and individuals regarding legislation 
aimed at granting legal status for this subset of undocumented 
immigrants children from South Carolina, children from as far 
away from South Carolina as California. When my good friend 
Jeff Denham was gracious enough to let me visit him in his 
district, Jeff, I remember a young lady at your town hall 
coming up to us afterward. And for virtually all her life this 
young lady grew up thinking that she was an American citizen. 
She never knew any differently. She led a virtuous life with 
good grades, hard work, community involvement, active in her 
church, wonderful, loving family. Exactly the kind of person 
that you and I would want to be a fellow citizen. She was 
polite. She was persuasive. She just had one question for us: 
what country am I supposed to go back to? This is the only 
country I have ever known.
    So while there is an obvious openness with respect to 
children who have done nothing wrong, those same equities in my 
judgment, do not apply in the same regard to the remainder of 
the 11 million undocumented immigrants. They may or may not 
have other equities to argue. Let me say this as plainly as I 
can, attempts to group the entire 11 million into one 
homogeneous group in an effort to secure a political remedy 
will only wind up hurting the most vulnerable. And to earn the 
trust, respect of our fellow citizens, we must ensure there are 
sufficient antifraud measures and sufficient screening 
mechanisms so those who seek the benefit unjustly and without a 
factual basis are identified.
    In conclusion, let me say this: we are a Nation of laws 
because law provides order and structure and predictability and 
peace and equality and justice. Compassion is good. But it can 
ebb and flow with the vicissitudes of life and the perspective 
of the individual.
    The law remains sturdy and strong as the foundation upon 
which we live. I will support and defend the Constitution and 
laws of the United States of America against all enemies, 
foreign and domestic. I will bear true faith and allegiance to 
the same. I will bear arms on behalf of the United States when 
required by the law. I will perform noncombatant service in the 
Armed Forces of the United States when required by the law. I 
will perform work of national importance under civilian 
direction when required by the law. That is not an oath for 
Congress; that is the oath of citizenship. That is the pledge 
and the promise each makes, hand on heart, to their soon to be 
fellow citizens. Five distinct references to the law in just a 
single paragraph of the oath. If we expect people to support, 
defend, and live by the law after they become citizens, what 
possible explanation can exist for not applying the law during 
the process of becoming a citizen.
    So finally the equities are on the side of the children in 
my judgment. Equities to be debated. The law is also on the 
side of these children. And the law stands above equity and 
opinion. America is different. We are compassionate and free 
because most of all we are a Nation of laws. And I presume that 
is one reason people so desperately want to come here in the 
first place.
    And with that, I would recognize the gentlelady from 
California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. Today's hearing 
examines a critically important issue in our broken immigration 
system: the treatment of undocumented young people who were 
brought to the U.S. as children. These are kids who have grown 
up in this country, have attended American high schools, and 
who often know no other country as home.
    This Subcommittee last held a hearing about these DREAMers 
in 2007 when three young women testified about their lives. One 
of the witnesses, Tam Tran, grew up in California, graduated 
from Santiago High School in Garden Grove, California and from 
UCLA with a Bachelor's Degree in American Literature and 
Culture with honors. Tam was in the Ph.D. program in American 
Civilization at Brown University and was continuing to serve as 
a leading voice in support of the DREAM Act when she and a 
close friend, another DREAMer, died in a car crash on May 15, 
2010.
    I wanted to recognize Tam as we begin this hearing because 
I am mindful of what Martin Luther King, Jr. referred to as the 
``fierce urgency of now.'' Right now, we have an historic 
opportunity to fix our broken immigration system, and it would 
be a national shame if we were unable to do that. One part of 
that fix, an important and compelling part of that fix, is to 
ensure that DREAMers have an opportunity to become just as 
American on paper as they already are in their hearts. I 
believe that there is a strong, bipartisan support for that 
principle and I am encouraged by some of what I have heard on 
this issue from Republican Members, including those in 
leadership, over the past few months.
    In some ways, this is not new. The DREAM Act was first 
introduced as bipartisan legislation in 2001 and has had 
bipartisan support ever since. But the breadth of support in 
Congress is promising and I am extremely pleased that this 
breadth of support will be reflected by the witnesses who will 
be testifying today.
    But as encouraged as I am by the focus of our hearing 
today, I must also say that I have concerns about some of what 
I have read in the press leading up to this hearing. I 
understand that Majority Leader Cantor and Chairman Goodlatte 
are working on a legislative proposal that is rumored to be 
called the KIDS Act. Their desire to become champions for this 
issue is a positive development and is in many ways a testament 
to the hard work that DREAMers themselves have done to build a 
coalition by telling their stories and advocating for change. 
But like the immigration bills that this Committee marked up in 
June, we have not yet seen the language of the KIDS Act, and we 
have not been asked to contribute to the effort. While I am 
looking forward to reviewing the KIDS Act when its authors are 
prepared to share it, I know that this is a sharp departure 
from the history of DREAM Act legislation that was always 
drafted and introduced with bipartisan support.
    I am even more concerned about reports that some Republican 
Members may be working on legislation that would allow 
undocumented immigrants other than the DREAMers to obtain some 
temporary lawful status but without a specific path to legal, 
permanent residency.
    I want to be clear: I recognize that this represents 
significant progress, and I welcome that. I believe it shows a 
growing appreciation that we cannot fix our broken immigration 
system without addressing the 11 million undocumented 
immigrants who are part of our businesses, our communities, and 
our families. But I believe it would be a grave mistake to 
allow millions of people to come out of the shadows and obtain 
lawful immigration status, only to leave them in a second-class 
status for the rest of their lives.
    As I said at the Committee's very first hearing in this 
Congress, partial legalization is a dangerous path. We need 
only to look at France and Germany to see how unwise it is to 
create a permanent underclass. What makes America special is 
that people come here, they assimilate, they become fully 
American with all of the rights and responsibilities that 
citizenship bestows.
    The American people agree. In a recent Gallup poll, 
Americans were asked the following question: ``would you favor 
or oppose each of the following as part of legislation to 
address the issue of illegal immigration?'' They were then 
provided various components of top-to-bottom reform of our 
immigration laws, mandatory e-verify, tightened border 
security, increased visas for skilled workers, and, ``allowing 
illegal immigrants to become citizens.'' In the context of a 
broader fix to our broken immigration system, 88 percent said 
they favored a path to earned citizenship for the undocumented. 
Support was overwhelmingly strong across all ideological and 
ethnic groups. Among conservative, non-Hispanic, White 
respondents, 83 percent favored a path to citizenship and only 
17 percent opposed.
    We have an opportunity now to do something that will help 
strengthen America's economy. An opportunity to keep families 
together. And for everyone who believes in the rule of law, and 
I think all of us on the Judiciary Committee are in that camp, 
we have an opportunity to design an immigration system that 
promotes law-abiding behavior instead of our current one that 
actually depends upon law breaking.
    This opportunity does not come often. I feel as though my 
entire time in Congress, 18-plus years, has been spent looking 
for an opening to fix our broken immigration system once and 
for all. This is that time. The Senate passed a bipartisan 
immigration reform bill, and I am doing everything I can to 
make sure the House is able to do the same. If we work 
together, I think we can make that happen, and I think our 
country will be better as a result. We know that our history as 
a country, America, was formed by immigrants, and we will not 
serve our country well unless we ensure that our future also 
welcomes the immigrant that will help build a stronger America.
    And I thank you, Mr. Chairman, and yield back.
    Mr. Gowdy. Thank you. Thank the gentlelady from California.
    The Chair will now recognize the gentleman from Virginia, 
the Chairman of the full Committee, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Chairman Gowdy. Thank you for 
holding this hearing. Thank you for your compelling opening 
statement.
    You know, when most Americans think about illegal 
immigration, they picture adults crossing the desert on the 
southwest U.S. border. But not every illegal immigrant in the 
United States can be placed into the same category. Some did, 
in fact, come here by paying a coyote to smuggle them across 
the border. Some came here legally on a visa and didn't leave 
when their allotted time expired so they could work here 
illegally.
    However, there is another class of unlawfully present 
aliens, a class of individuals who deserve to be considered 
from a different perspective. I am talking about aliens brought 
here as children by their parents. They had no input into their 
parents' decision to bring the family to the U.S. illegally. 
And many of them know no other home than the United States, 
having grown up as Americans since they were toddlers, in some 
instances. They surely don't share the culpability of their 
parents.
    I have spoken about the fact that as part of the step-by-
step approach the House is taking to address immigration 
reform, we should look at whether we as a Nation should allow 
this group of young people to stay in the U.S. legally. And 
while this is an important piece of immigration reform, it too 
must be accomplished effectively and responsibly to ensure that 
several years from now Congress is not once again being asked 
to pass another piece of legislation dealing with the 
immigration status of a new group of young people brought here 
by their parents.
    To that end, I do not believe that parents who made the 
decision to illegally enter the U.S. while forcing their 
children to join them should be afforded the same treatment as 
their kids. Because, let's be clear, parents bringing their 
young children to the U.S. illegally is not something we want 
to encourage, not only because it would lead to continued 
illegal immigration, but also because illegally crossing the 
border is dangerous.
    We have all seen the pictures or even video of children who 
are dehydrated and lethargic from an arduous trek across the 
Mexican and Arizona desert with their parents or with smugglers 
paid by their parents. These border crossings could include 
everything from handing a child over to a coyote in hopes of 
getting the child to the U.S., to placing a child in the back 
of a semi-truck in hopes that Customs and Border Protection 
officers at the U.S. Port of entry wouldn't detect a human 
presence in the trailer, to bringing a child down into a tunnel 
built between Mexico and the United States, knowing that at any 
moment it could collapse. These are all kinds of things that 
immigration reform must ensure come to an end. Enforcement at 
the border and in the interior of the U.S. is crucial to ending 
these kinds of situations. And this Committee has passed 
legislation to strengthen the enforcement of our immigration 
laws.
    However, successful immigration reform must also look at 
how to address the significant population of illegal immigrants 
who are already here and who were brought here as young 
children by their parents through no fault of their own. And it 
needs to acknowledge that just because there is a group of 
children does not mean they should all be treated the same. For 
instance, if they have joined gangs or been involved in 
criminal activities, such as by entering the country as a drug 
mule crossing the border, or if they have otherwise shown that 
they do not intend to be productive members of American 
society, they should not be treated the same for purposes of 
legal status as young children brought here by their parents.
    So I am pleased that the Chairman is taking the time to 
look at this issue today, and I look forward to hearing the 
testimony of all of our witnesses. Thank you, Mr. Chairman, I 
yield back.
    Mr. Gowdy. I thank Chairman Goodlatte.
    I know we have two panels, including four colleagues who 
have other Committee assignments. There had been other requests 
for opening statements. So we will get to you as quickly as we 
can. I will recognize Mr. Garcia, gentleman from Florida.
    Mr. Garcia. Thank you, Mr. Chairman. I wish to thank the 
Chairman. I know that he and many on the other side are trying 
to find a solution for this problem, a right solution, a just 
solution, an American solution. That said, when Members of this 
Committee, when Members of this House use inflammatory 
language, use offensive language, it does not help the process. 
In my district, I have multiple schools who on a regular basis 
produce valedictorians. And they are undocumented. However, 
when Members of this House use language such as, ``For everyone 
that is a valedictorian there are another hundred out there who 
weigh 130 pounds and have calves the size of cantaloupes 
because they've been hauling 75 pounds of marijuana across the 
desert,'' it is offensive. And is beneath the dignity of this 
body and this country. I know that my colleagues are trying 
hard. In particular, I know that the Ranking Member on our side 
has been working very hard to find a solution. But this is an 
American problem, and we need to work together. We need to stop 
pointing fingers and find a pathway forward.
    I look forward to the good will in particular of all this 
House to try to find a way to solve this very American problem. 
Thank you.
    Mr. Gowdy. The Chair thanks the gentleman from Florida.
    The Chair now recognizes the gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman. I appreciate your 
recognizing me for an opening statement. And my purpose in 
requesting time here is to help set the tone a little bit 
differently, in that when I see that we have eight witnesses 
all lined up on one side of the agenda and four people lined up 
to speak as opening statements and then would hear from the 
eight witnesses and at that point maybe you would hear from 
someone who happens to disagree with this concept that is 
before us today called the KIDS Act. And I don't know how I am 
supposed to know that officially. I did pick that up in the 
news. I know it was referred to by the gentlelady from 
California as the KIDS Act.
    But we don't have a bill before us, ladies and gentlemen. 
And so we can't look at the language of a bill and take a 
position on that language. We are here today examining a 
concept, a philosophy, a potential bill that is not yet before 
us. This is the opposite order that we usually conduct business 
with in this Congress. So I would suggest that in the future we 
turn that back around, actually have a bill before us that we 
can have witnesses testify to.
    All of us have sympathy for children who are brought here 
without knowledge that they were breaking the law. I do not 
think that the definition of a child cannot form intent doesn't 
stick when I look at the way we punish people for committing 
other crimes. And so I disagree with that definition to some 
degree with the Chairman of the Subcommittee on this particular 
subject. But whose fault is it? It is not the children's fault 
if they are children. It is not the children's fault if they 
are unaware. It is not the children's fault if their parents 
brought them into the United States. They are all subject to 
the application of the law. Then whose fault is it? Is it the 
parents' fault? I think so. And is any one of these witness 
panel, these four or the next four, are they going to advocate 
that we punish the parents for bringing their children into a 
situation where they all find themselves in contradiction of 
the law, in violation of the law? Is this being set up as a 
broader picture of a backdoor amnesty so that all people that 
are unlawfully in the United States, with those exceptions that 
the Senate has identified as those that have committed a felony 
and those who have committed those three mysterious 
misdemeanors, they would be exempt. But, otherwise, everybody 
in America is targeted to get legalized by the Senate Gang of 
Eight that may be implicitly in an action that might come from 
this bill. And I am very concerned about that. Because if you 
legalize people that are here in this country unlawfully and 
you waive the application--even if there were children and you 
waive the application of the law on their parents, especially 
if they are the ones that brought them to commit this act, then 
who do you enforce the law against if everybody that hasn't 
committed the felony is now legalized or their family member is 
to be reunified and everybody that comes after this point, when 
do you start to enforce the law if we can't enforce it today? 
On the next one that arrives with a 1-week-old baby? Maybe. I 
don't think so. I think what is on course here, advocated by 
our witnesses ahead of us, I expect, and those that will follow 
them, is, we will just do this little sliver here because this 
one tugs at our heart. It tugs at my heart, too.
    But I listen to the Subcommittee Chairman's statement when 
he says he wants a remedy that will last a lifetime. I think we 
have a higher responsibility than that. I think we have to 
preserve the rule of law so that this country can last for 
many, many generations into the future. Not our lifetime, but 
the lifetime of the United States of America. And if you exempt 
the rule of law with regard to immigration, even a part of it, 
then what you have done is you have suspended the law in a 
category. And if you can suspend the law and exempt it for 
people who are either here illegally, for people that will come 
here illegally and those who, by the way, according to the 
Senate language, have been deported in the past and you invite 
them to come back to the United States again, then what you 
have done is you have sacrificed the rule of law on the altar 
of political expediency. And the result will be American 
immigration law will not be set by Americans again, it will be 
set by the people that can circumvent the border security that 
we are promised. But I will promise you, it will not come. It 
did not come in 1986. This Administration is not serious about 
enforcing the law. They will make whatever promises they need 
to do in order to do the legalization they want to do. And if 
the end of this thing is citizenship because they are willing 
to sacrifice the rule of law for political power and we have 
100 million Americans today of working age that are not in the 
workforce, and we are talking about giving a reward for 
breaking the law, we must take this back to the essential 
fundamental principle.
    I appreciate the Chairman yielding me some time, and I am 
looking forward to the testimony of the witnesses. I am not 
hopeful that I am going to hear that statement in any of the 
testimony that comes before this Committee. I thank the 
Chairman. I yield back the balance of my time.
    Mr. Gowdy. The Chair now recognizes the gentlelady from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, this is a good start. We 
have done this, however, for those of us who are senior Members 
on this Committee, for more than a decade. And I thank you and 
Congresswoman Lofgren for the testimony that will be rendered 
today. And I believe that it is worthy to hear Members of 
Congress and to find that common ground. It is also worthy to 
hear the opposition. But it is also well to note that we as 
legislators are best when we act on behalf of the American 
people and we strike a compromise. The difficulty is, as I have 
listened to my good friend, that we will go nowhere if we 
cannot find a common ground or we do not have those who can see 
compromise on the horizon. But the one thing that we cannot 
compromise on, and I said this earlier in remarks, around the 
DREAMers and I thank them, for they have put in a spark plug 
that has drawn now the interest of our friends on the other 
side of the aisle, is that we are commemorating and celebrating 
Ramadan, but we also have principles in the Christian faith. 
One of them is in the book of Ruth, where this young woman 
entreats her mother-in-law not to leave her. She had come close 
to her mother-in-law, and she asked that her mother-in-law not 
go somewhere else and leave her. But we want to tell the DREAM 
Act children that they can stay, but we don't know about your 
parents or your sisters and brothers. What values are those? 
What value is it if we tell our DREAM Act children that they 
can stay but we tell them not to honor their mother and their 
father. We have a format. We have comprehensive immigration 
reform. And we can listen to individual suggestions. I have 
seen bills that may be advantageous, that may even be put into 
the larger framework that so many Members have been working on 
over the years. But we cannot move forward if we have motions 
on the floor of the House, for example, voted enthusiastically 
to unfund the funding that would process DREAM Act children. 
How can you say that you are interested in moving forward when 
we have struck a chord of dissension by taking the very dollars 
away that would help move the process forward, even if we were 
to take this one bill at a time.
    I will say this as I wrap up. I have spent a number of 
years, we will hold an immigration hearing that we invite all 
of you to come to in Houston, Texas, on the 29th. We want 
people to come from far and wide. Members of Congress are 
coming in from around our State. And we are looking to 
delineate Texas' interest and commitment, as one of the larger 
States of the Union, in comprehensive immigration reform.
    This morning, we heard that it is not only business 
persons, but it is the evangelical or the faith community and 
business. We are hoping to strike a chord. That is what we need 
in this Congress. Members of Congress that believe in business, 
you can vote for comprehensive immigration reform. Members of 
Congress that believe in the faith community, evangelicals and 
want to bring people together, you can vote for a comprehensive 
approach. And certainly if you adhere to law enforcement, who 
have cried out for comprehensive immigration reform, you can do 
that. But most importantly, if you believe in humanity, if you 
believe in the young people that maybe because we are in 
Washington you don't see. I see them. They come into our office 
with tears in their eyes. Yes, valedictorians, salutatorians. 
Young men and women--I know there is a bill talking about those 
who have served in the military. We have done some of that 
before. Some young man who stopped me while I was shaking his 
hand on the platform of graduation, he stopped me as we were 
shaking hands, wishing him well. He said, I want to go into the 
service. And he can't go now. He didn't stop me and said he 
wanted to go to vacation or he wanted to get a big-time job. He 
wanted to go and serve his Nation. But of course he had an 
obstacle. If you see those kinds of children, then you know 
that the only approach we can take is comprehensive immigration 
reform. If you see the tears, if you view the vast humanity, 
that is the approach we should take.
    I hope, Mr. Chairman, Ranking Member, that this Committee 
will see a comprehensive initiative, and that we will be voting 
much sooner than later for a better America. With that, yield 
back.
    Mr. Gowdy. Thank the gentlelady from Texas.
    The Chair now recognizes the gentleman from Texas, Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. Thank you for holding 
this hearing, as well as the Chairman of the full Committee, 
the numerous hearings we have had and the step-by-step approach 
toward immigration reform legislation. I want to make my 
comments center on the phrase breaking the law. ``Breaking the 
law.''
    It is estimated that over 1.3 million children were brought 
here from foreign countries without their consent by their 
parents who are under the age of 10. 1.3 million brought here 
under the age of 10. Everywhere in our law that I am aware of 
there must be some intent for the act to be committed, either 
civil intent to form a contract, criminal intent to commit a 
crime. In most States, 10 and under, a person cannot form the 
intent to do anything, to commit a crime, to sign a contract, 
because the law says they are a child. And as you have said, 
Mr. Chairman, immigration law is the only place I know of where 
intent is not required to be considered, quote, illegal.
    I think it is time that we bring the law up to the standard 
of all laws in the United States, that a child cannot form the 
intent to commit an act that is illegal in the United States. 
So, therefore, we should look at children brought here by their 
parents, 10 and under, whatever age we use, 1.3 million, as not 
being able to have illegal status because they cannot--they did 
not consent to the act. They did not make that determination 
mentally. And, therefore, they should be treated, I think, in a 
special way, that they are children brought here with no intent 
to have the status that they have, they were--that status was 
given to them by their parents.
    So breaking the law? I am not so sure that we can say that 
they have broken the law because their status should not be 
retroactive after they reach a certain age, but their age at 
the time that they were brought here. 1.3 million brought here 
under the age of 10, nowhere else in our law can a person 
commit a violation of the law under the age of 10 except in 
immigration.
    So it seems to me that it is time that we deal with these 
special children in a very special way and bring them into our 
society and move forward with rectifying this error in our 
immigration law and making sure that we, as the Chairman has 
said, have compassion, that we follow the rule of law, and that 
we move forward with recognizing these children.
    I have met numerous individuals who were brought here as 
children. Some of them serve in our military overseas, 
Afghanistan, Iraq. So I think this hearing is very important, 
hearing from fellow Members of Congress about this issue is a 
unique, special issue in the entire discussion of immigration 
legislation,dealing with those children that were brought here 
not by their choice and not by their intent, but the choice and 
intent of someone else.
    And I will yield back, Mr. Chairman.
    Mr. Gowdy. Thank the gentleman from Texas.
    Mr. Gowdy. I believe there was one more request from the 
gentleman from Idaho.
    Mr. Labrador. Mr. Chairman, there was no request. But I 
will go ahead and make a short statement. I just----
    Mr. Gowdy. I should have kept my mouth shut.
    Mr. Labrador. Okay. But anything the Chairman asks me to 
do, I will do.
    Mr. Gowdy. The gentleman is recognized.
    Mr. Labrador. Thank you. Mr. Chairman and members of the 
panel, members of the audience, I am grateful that you are 
here. I am grateful that we are having this discussion. I think 
it is important for us as Americans that we comply first with 
the rule of law, that we, second, look at what the security of 
our Nation is, that we, third, look at what we need to do to 
make sure that the mistakes we have made in the past with 
respect to enforcement of our law, that they can be corrected. 
I think this is an important hearing. I think--I like the tone 
that we have set so far. And I want to make sure that we 
continue to have this tone and this conversation here about 
what to do with the people that came here as young people.
    Now, I do want to make something very clear that I have 
said in public and private. There is no right to citizenship of 
the United States. It is a privilege that is provided by the 
law. And it is a privilege that is provided by our 
Constitution. And it is something that we need to discuss here, 
how to do it in the best way, so we can prevent in the future 
having the same mistake--making the same mistakes that we made 
in 1986 and making the same mistakes that we have made over the 
last 30 or so years. And I want to thank you for being here. I 
want to thank you for your efforts. And I will continue to do 
something to make sure that we can find a way for us to 
actually solve the problems that are facing us, which are grave 
problems that I think affect the future of the United States.
    Thank you, Mr. Chairman.
    Mr. Gowdy. Thank the gentleman from Idaho.
    We are privileged to have two wonderful panels, the first 
of which are four of our distinguished colleagues, each of whom 
has a very distinguished resume. I would invite the audience or 
the viewers to look at their resumes in more detail. But in the 
interest of time, because they have other Committees to go to--
and, Luis, we are anxious for you to come up and join the 
Subcommittee, I am not going to read the biographies. I am 
simply going to recognize Representative Coffman, 
Representative Denham, Representative Gardner, Representative 
Gutierrez, for your opening statements. And then we will--we 
thank you, and we will let you go back to the Committees that I 
know you all serve on.
    With that, Representative Coffman.

 TESTIMONY OF THE HONORABLE MIKE COFFMAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Coffman. Thank you, Mr. Chairman. So the first question 
that we----
    Mr. Gowdy. You may want to punch the button on the----
    Mr. Coffman. It is on now.
    So the first question that we ought to ask ourselves here 
today is whether or not we believe that the young people who 
were brought to this country illegally as children, who grew up 
and who went to school here, who probably know of no other 
country, ought to have the pathway to citizenship. And I 
believe that the answer to that question is yes.
    From my own background, I believe that the greatest 
expression of American citizenship is serving this Nation in 
our military. It is from the sacrifices of those who have worn 
the uniform that we as Americans enjoy the freedoms that we 
have today. I strongly believe that the undocumented young 
people in our country ought to be able to serve in our military 
as one of those pathways to citizenship.
    I come from a military family. My late father served in 
both the United States Navy and the Army and was a combat 
veteran from both World War II and the Korean War. I am also a 
combat veteran with service in both the United States Army and 
Marine Corps and was in both the first Gulf War and the Iraq 
War.
    First of all, I think we need to remember that the role of 
the United States military is to defend our Nation and that the 
principle objective must always be the national security of our 
country. We must never use our Armed Forces as an instrument of 
social policy when that conflicts with our national security 
interests. Many of us can remember being told, half jokingly, 
by drill sergeants that in the military we are to defend 
democracy and not to practice it.
    So the first question should be, will it benefit our 
military to have these undocumented immigrants be able to 
enlist in the United States military, and I think that the 
answer is clearly yes. Allowing these undocumented young people 
to enlist in the military will contribute to the national 
security of our country.
    I left for my first overseas assignment in the United 
States Army in Europe in 1972. I returned from my last 
assignment with the United States Marine Corps in Iraq in 2006. 
What I saw over the course of that time was first a military in 
the early 1970's, in the aftermath of Vietnam, that suffered 
from low morale, poor discipline, and a question mark behind 
its combat readiness. Since both recruiting and retention were 
difficult, standards were continually compromised in favor of 
sustaining a large force numerically.
    There is no comparison to my reflection of the military in 
the early 1970's and the military of today. The United States 
Armed Forces of today is much smaller in size, but it is an 
elite and a more lethal force of highly qualified Americans who 
want to continue to serve. However, when the civilian job 
market improves, retaining this quality force will become more 
challenging.
    A study in 2009 completed by Mission Readiness, entitled 
``Ready, Willing, and Able to Serve,'' found that 75 percent of 
young adults between the ages 17 to 24 are not fit for military 
service because they either don't have a high school diploma, 
are overweight, have a criminal record, or a history of 
substance abuse. I strongly believe that expanding the pool of 
eligible recruits to select from could play a critical role in 
helping to retain the elite status of our military even as the 
civilian job market improves.
    What my legislation, H.R. 435, the Military Enlistment 
Opportunity Act, does is provide reforms to our recruiting 
regulations that would allow certain undocumented residents of 
the United States to apply for military service after they have 
been first vetted by the Department of Homeland Security. The 
vetting by the Department of Homeland Security would only mean 
that the individual is eligible to apply to serve in the 
military and it would be up to each respective branch of 
service as to whether or not to accept these applicants.
    Permanent residents, or green card holders, are allowed to 
enlist in the military today, but because they are not U.S. 
citizens, they are very restricted in terms of what 
occupational fields they can do. Only U.S. citizens can hold a 
security clearance and without a security clearance, an 
increasing number of occupational fields in the military are 
off limits. Opening up enlistment opportunities to undocumented 
residents would only aggravate an existing problem by 
relegating these new recruits to a shrinking number of 
occupational fields given the fact that more and more of them 
require security clearances.
    My solution under H.R. 435 is to grant citizenship at the 
beginning of their enlistment for both permanent residents and 
for those who were previously undocumented but now who would be 
allowed to enter the military. This would enable the military 
to use all of their soldiers, sailors, marines, and airmen to 
their best and highest potential because they would no longer 
be restricted from entering the majority of career fields. 
However, in doing so, I would make the citizenship revokable 
should the service member receive a less than honorable 
discharge within a 5-year period. Currently, enlistments are 
for an 8-year period but can be a combination of active duty, 
reserve, or inactive reserve time when the service members are 
still available to be called up to return to active duty.
    I strongly believe that allowing those young people we are 
talking about today to serve in our military as a pathway to 
citizenship is not just the right thing to do but will serve to 
strengthen the national security of our country.
    Thank you, Mr. Chairman.
    Mr. Gowdy. Thank you, Representative Coffman.
    [The prepared statement of Mr. Coffman follows:]
           Prepared Statement of the Honorable Mike Coffman, 
        a Representative in Congress from the State of Colorado
    Thank you Chairman Gowdy and the Immigration Subcommittee Members 
for the opportunity speak today on this panel on the legalization of 
the young undocumented population present in the United States.
    Historically, there is no question that immigrants have contributed 
greatly to the strength, prosperity, and vitality of our nation.
    Americans understand that people are an asset to be valued because 
we are a nation of, by and for the People--without which our American 
experiment would cease to function.
    Unfortunately, our current system is broken and has become overly 
burdensome for individuals and their families, who want to come to the 
U.S. in search of a better life.
    The legal immigration process is so difficult that it encourages 
breaking the law rather than wading through a complicated bureaucratic 
visa system.
    For these reasons, I support conservative immigration reform 
because our current system simply does not work for the individuals who 
share our beliefs and deeply desire to be here.
    Although I understand the issue of immigration reform has become 
divisive, I do believe we can come together on at least one single 
issue.
    We can and should provide a path to citizenship for the young 
undocumented individuals who were brought here by their parents.
    These young people have grown up here, attended school here, and 
know of no other country besides the United States.
    It should be easy for us to formally accept them into society as 
long as they have stayed out of trouble and are independent, productive 
residents.
    Also, many of these young people wish to serve this country in 
uniform.
    My late father, a retired Army master sergeant, taught me that 
there is no higher demonstration of American citizenship than serving 
in the military.
    As a Marine Corps combat veteran myself, I could not agree more and 
I strongly urge that these individuals have the opportunity to enlist 
and serve if they qualify.
    Early this year, I introduced H.R. 435, the Military Enlistment 
Opportunity Act, which would allow qualified Deferred Action Childhood 
Arrivals to enlist in the military.
    Most importantly, H.R. 435 provides a path to citizenship through 
military service, giving recruits access to all areas of military 
service including Officer Candidate School, Special Forces, military 
police, and cyber security.
    Citizenship is a prerequisite for a security clearance--without 
which--these career fields are foreclosed.
    This access to additional talent is also highly beneficial to our 
armed services because creating a greater pool of recruits is crucial 
for the military to confront an impending recruitment problem.
    Recently, a study completed by Mission Readiness, titled ``Ready, 
Willing and Unable to Serve,'' concluded that 75 percent of young 
adults ages 17 to 24 are not fit for military service.
    The vast majority of applicants are turned away because they don't 
have a high school diploma, are overweight, have a criminal record or a 
history of substance abuse.
    My bill would allow the military to continue to choose from the 
best by expanding their recruiting base. This is essential for our 
national security.
    Finally, unlike other proposals like the Senate bill, H.R. 435 is 
in line with how the military enlistment process functions.
    By certifying the individual before they attempt to enlist, we 
relieve the military of performing the central functions of the 
Department of Homeland Security.
    Although the military does perform background checks and confirm 
documents, their central function is to ensure the best and brightest 
are joining their ranks rather than authenticating individual 
documents.
    H.R. 435 is a commonsense bill that helps young undocumented 
individuals as well as the military.
    I hope that this Committee and the House as a whole understand how 
important immigration reform can be for our military and national 
security, and
    I look forward to working together on legislation that not only 
helps the young people gain legalization but also aids the armed 
services maintain their elite and unparalleled level of service to this 
nation.
    Thank you again for the opportunity to testify today and I yield 
back.
                               __________

    Mr. Gowdy. Representative Denham, we want to make sure the 
microphones are fully functioning, so we may need to stand down 
just for 30, 45 seconds.
    Mr. Denham. Chairman Gowdy.
    Mr. Gowdy. It is definitely working now, Brother.
    Mr. Denham. Chairman Gowdy. There we go.

  TESTIMONY OF THE HONORABLE JEFF DENHAM, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Denham. Chairman Gowdy, Ranking Member Lofgren, I just 
want to first start by thanking both of you for not only the 
appreciation that I share with both of you on spending time 
with me going over specific pieces of this legislation, but 
more importantly, my constituents. You guys have both dedicated 
a great deal of time and it is much appreciated by me and the 
folks in my district. I also want to thank the Members of this 
Committee for dedicating so much time to actually fixing this 
problem. I, like the Chairman, want to fix this once in my 
lifetime. It is a huge priority. It is a personal priority of 
mine. But it is also something that I believe will grow the 
economy of California and contribute to the greatness of 
America.
    But on a personal note, I have witnessed the trials and the 
joys of immigration through my own family. My father-in-law is 
a naturalized citizen from Mexico, my wife and her siblings 
first-generation Americans. I was very proud when my father-in-
law, a very proud man, asked me to help him study for his 
citizenship test. It is a big deal. Not everybody wants to 
become a citizen, but those that do are willing to work hard to 
make this country great. Now, I know that we are here today to 
talk about kids that have been brought here through no fault of 
their own, a very important topic. And I look forward to 
continuing to engage on a variety of other issues. But 
specifically on this topic, one of the bills that is already in 
print, that a number of you have already cosponsored, will be 
part of the KIDS Act, would be the ENLIST Act. And during my 16 
years of serving in the United States Air Force, I served along 
with many foreign nationals who were able to earn citizenship 
through putting their lives on the line for Americans in the 
armed services. Our Nation has never made citizenship a 
requirement for service in our Armed Forces. 50 percent of 
enlistees in the 1840's were immigrants. 660,000 military 
veterans became citizens through naturalization between 1862 
and the most recent numbers of 2000. Individuals from Marshall 
Islands, Micronesia, Palau, and America Samoa can gain 
citizenship today through military service. The Lodge Act was 
passed by Congress in the 1950's to allow the military to 
recruit from Europe and other Nations overseas to fill critical 
roles. Between 1952 and 1990, 34,620 Filipinos, many of whom I 
served with, enlisted in the Navy were granted U.S. 
citizenship.
    I introduced the ENLIST Act, H.R. 2377, which authorizes 
the enlistment in the Armed Forces of undocumented immigrants 
who were brought into the United States as children and who are 
otherwise qualified for enlistment. This bill will provide a 
way for the undocumented immigrants to be lawfully admitted to 
the U.S. for permanent residence by reason of their honorable 
service and sacrifice in the U.S. military. Not the only way, 
but certainly a way to show their dedication to this great 
country that we have.
    The ENLIST Act will only affect a certain population of 
kids who have been in the United States since the age of 15 and 
are prohibited from expressing their patriotism and allegiance 
to the United States under current military code. These 
recruits would provide the military departments with a talent 
pool of young men and women, many of whom would have 
strategically valuable language and cultural competencies.
    I recently met with a constituent, Gloria Sanchez, Mr. 
Chairman, I think you met her as well, who was recruited by the 
Marines from Modesto High School. A day after completing her 
paperwork and forms, Gloria was contacted by the recruiter and 
asked for her Social Security number, which she obviously did 
not have because she was brought here unlawfully into the 
United States. Gloria would have been able to serve her country 
had my ENLIST Act already been law.
    In the midst of our immigration reform debate, one thing we 
should all agree on is that we must require those who came here 
illegally to give back before they can receive any additional 
benefit. As someone who served, I remember the pride I felt 
wearing the uniform and cannot think of any better way for 
these young people to earn the right to fully share in the 
rights and freedoms of America.
    I would just like to point out one other thing. As we 
traveled around this district, we traveled around the State, 
and I have even spent on time in other districts around the 
Nation. I have talked to not only a large number of immigrants, 
but I have talked to a lot of kids. And I get a very 
interesting look. We don't speak English--we don't speak 
Spanish, we only speak English. Their entire life they have 
gone to our schools with our kids.
    It is an issue we have to address. This is a big challenge, 
addressing the entire immigration system. But specifically on 
this issue, we have to address this issue, we need to address 
it now.
    Let me just finish by saying last month I appreciated 
Chairman Goodlatte and House Democratic Caucus Chairman 
Becerra, we had a colloquy on the floor dealing with the ENLIST 
Act. Both had said that they were willing to work together on 
making sure that this issue becomes a reality. I appreciate 
your willingness to do that. This is an important part of this 
package. And I hope this entire Committee and the entire House 
will consider the ENLIST Act as one of the ways, one of the 
ways for undocumented individuals to legalize. Without 
providing opportunities to earn a legal status our body will 
not resolve our immigration status. There is no better way than 
putting your life on the line for this country to become an 
American citizen.
    I thank you.
    Mr. Gowdy. Thank you, Mr. Denham.
    [The prepared statement of Mr. Denham follows:]
           Prepared Statement of the Honorable Jeff Denham, 
       a Representative in Congress from the State of California
    Dear Chairman Goodlatte, Ranking Member Conyers, Members of the 
Committee,
    Thank you for giving me the opportunity to address you in this 
Hearing on the immigration status of those brought to the United States 
as children. These are undocumented residents who only know America as 
their home, and were brought into the United States not by their own 
will, but that of their parents or guardians.
    As a resident of central California, I have spent several decades 
getting an education, running a business, raising children, farming, 
attending worship services, volunteering for school events and kid's 
sports events--all alongside neighbors who were immigrants from Central 
America, South America, Southeast Asia, Portugal, and many other parts 
of the world.
    I have also witnessed the trials and joys of immigration through my 
own family. My father-in-law is a naturalized citizen from Mexico, and 
my wife and her siblings are first-generation Americans. Watching my 
father-in-law and other family members go through the process of 
becoming citizens and integrating their pride of their heritage 
seamlessly with their American patriotism has helped shape my idea of 
what patriotism means. I am grateful for the opportunities I have had 
to experience the rich heritage of immigrants in one of the most 
diverse regions of the world, and it is a heritage my wife and I have 
taken great care to share with our two children and our nieces and 
nephews.
    Although I grew up in a very diverse environment, it was during my 
16 years serving in the United States Air Force that I developed my 
strongest appreciation for the contribution of immigrants to our 
nation. I served alongside many foreign nationals who were able to earn 
citizenship through putting their lives on the line for Americans in 
the Armed Services.
    Our nation has never made citizenship a requirement for service in 
our armed forces. Since the founding of our nation, noncitizens have 
been a part of our military, and Congress has seen fit to make military 
service a way for patriotic individuals from other countries to show 
allegiance to our flag and become United States citizens.
    Almost half of U.S. Army enlistees in the 1840s were immigrants and 
more than 660,000 military veterans became citizens through 
naturalization between 1862 and 2000. These men and women have proven 
that they are prepared to make the ultimate sacrifice for their adopted 
country. I believe that anyone who swears an oath to defend our nation 
and serves out an enlistment term honorably should be entitled to the 
privileges afforded to American citizens.
    Currently, citizens of the Marshall Islands, Micronesia and Palau, 
as well as American Samoa can gain citizenship through military 
service. Many individuals here on student visas and employment-based 
visas have special eligibility to join our armed forces and earn 
citizenship through the Military Accessions Vital to the National 
Interest (MAVNI) program. Additionally, many foreign nationals and 
Legal Permanent Residents serve in our armed forces as a way to earn 
citizenship. In the 1950s, Congress passed the now-expired Lodge Act, 
which allowed the military to recruit from Europe and other nations 
overseas. Between 1952 and 1990, 34,620 Filipinos enlisted in the Navy 
and were granted U.S. citizenship. In all of these cases, national 
security is enhanced, not threatened or undermined by foreign nationals 
and noncitizens. Likewise, allowing undocumented immigrants to enlist 
would not pose any additional national security risk because they would 
be subject to the same screening mechanisms in place for the other 
foreign nationals serving in our armed forces to earn the right to be 
called Americans.
    In order to allow undocumented Dreamers to serve our country, I 
introduced the ENLIST ACT, H.R. 2377, which authorizes the enlistment 
in the armed forces of undocumented immigrants who were brought into 
the United States as children and who are otherwise qualified for 
enlistment. This bill will provide a way for the undocumented 
immigrants to be lawfully admitted to the U.S. for permanent residence 
by reason of their honorable service and sacrifice in the U.S. 
military.
    The ENLIST Act will not give undocumented immigrants special 
benefits, nor will it create an opportunity or incentive for 
undocumented immigrants to rush the border now. The bill will not 
change military naturalization law. The ENLIST Act will only affect a 
certain population of people who have been in the United States and are 
prohibited from expressing their patriotism and allegiance to the 
United States under current military code. The bill gives an 
opportunity for current undocumented immigrants who otherwise qualify 
for enlistment to give back to the nation that has provided them with 
so much, including public elementary and secondary education and, in 
many cases, a college degree.
    For the many thousands of young undocumented immigrants who 
graduate from our public and private high schools each year, military 
service would offer an avenue for them to serve the United States and 
earn a legal status in the country they love. These recruits would 
provide the military departments with a talent pool of young men and 
women, many of whom would have strategically valuable language and 
cultural competencies.
    I recently met with Gloria Sanchez, a constituent of mine, who was 
recruited by the Marines to serve our country for her leadership, 
aptitude, skills, courage, and patriotism. The Marines and other 
branches of the military visited her high school, Modesto High School, 
and spent hours talking interested students through the recruitment 
process. A day after completing her paperwork and forms, Gloria was 
contacted by the recruiter and asked for her social security number, 
which she did not have because she was brought unlawfully into the 
United States. Gloria would have been able to serve her country had my 
ENLIST Act already been law. It is a shame to see men and women who 
have lived in the United States for most of their childhood denied the 
ability to put their lives on the line for our country. Congress has an 
interest in helping build up and care for our armed services, and that 
includes providing opportunities for patriotic young people like Gloria 
to enlist and serve alongside our forefathers and the greatest heroes 
of American history.
    This body is debating different approaches to fixing our broken 
immigration system, but one thing we should all agree on is that the 
approach must require those who came here illegally to give back before 
they can receive any additional benefit. As someone who has served, I 
remember the pride I felt to wear the uniform and cannot think of any 
better way for these young people to earn the right to fully share in 
the rights and freedoms of America.
    I hope you will support the ENLIST Act's purpose of allowing 
undocumented immigrants to enlist in the regular component of the Armed 
Forces. Thank you for giving me the opportunity to present this 
testimony before you today.
                               __________

    Mr. Gowdy. Mr. Gardner.

 TESTIMONY OF THE HONORABLE CORY GARDNER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Gardner. Thank you, Chairman Goodlatte, Ranking Member 
Conyers, Chairman Gowdy, Ranking Member Lofgren, and other 
Members of the Committee, for the opportunity to testify today. 
My full statement has been submitted for the record.
    This hearing today is an important step toward addressing 
immigration reform in a sensible and systematic manner. 
Clearly, our current system is broken. Immigration is an 
important issue for my district,like it is for everyone on this 
panel. Ignoring immigration laws for nearly 2 decades has 
helped result in approximately 11 million people in the United 
States without documentation. In fact, 40 to 42 percent of 
undocumented individuals in the Nation were once here legally, 
but overstayed their visas. The 1986 bill has proven unworkable 
and too easily avoidable. We must reform immigration laws and 
we must do so in a step-by-step process with deliberation and 
debate surrounding each piece of reform. And we must begin with 
border security and interior enforcement. We cannot simply put 
reform to the side because it is unworkable or the political 
will is simply not present to make it work. We have a chance to 
prove to the American people that the Federal Government can be 
trusted to build a long-term and common sense system.
    It has been said by many that the United States is a Nation 
of immigrants, and I imagine if I was not blessed to be born in 
this country I would have done everything I could to be in this 
country. But we are also a Nation of laws. Our current 
immigration laws have proven inadequate and are not being 
enforced. If a law is not enforced or it is ignored, then we no 
longer remain a Nation of laws and the law becomes worth little 
more than the bill paper that it is written on.
    Congress must move forward by building a new system of 
immigration laws that will stand strong and secure but still 
allow a workable system for people that want to be part of this 
great Nation and a healthy economy to have the opportunity to 
do so. I urge the House to be guided by law and fairness during 
this process and fair as well to the those currently waiting in 
the legal process to become citizens. Any immigration reform 
must first begin with border security and interior enforcement 
as a top priority, and I will not support reform that fails to 
include strong security enforcement measures. Not only do these 
measures need to exist, but there must be confirmation from a 
credible outside entity that these measures have been satisfied 
and implemented. No one should be able to simply choose not to 
enforce the law or waive it through the administrative process. 
Once we have secured our borders and are enforcing the law and 
guaranteed these measures are working may we look to other 
reforms.
    With these principles setting the framework, we are here to 
discuss potential reform for the very young, the children who 
were brought illegally into this country as minors. These are 
the children and young adults that for all intents and purposes 
are culturally American. These are the children that grew up in 
the United States and go to school with our children and 
grandchildren, with my daughter. This is an issue of fairness, 
law, and compassion. Many of these children know no other 
Nation except for the United States. Their parents made a 
decision to enter the country illegally and our broken system 
did nothing to prevent it. They deserve to be afforded some 
form that recognizes that they are here through no fault of 
their own. It was not their decision to not follow the law. I 
believe Members across the aisle can unite and agree that 
providing them with some sort of immigration relief is the fair 
thing to do. But this must be part of a step-by-step reform 
package. The legislation addressing these young individuals 
should not provide them with a treatment that is unfair to 
those already following the legal process. Any legislation 
addressing these children would need to be solely for the 
benefit of the child and no one else. It cannot elicit chain 
migration. During the process, we must find the appropriate 
balance. And while these children remain innocent, we cannot 
reward those family members who have broken the law.
    And I have a story that I would like to share with the 
Committee. In 2005, I had just been appointed to the Colorado 
State Legislature, and I held one of my first town meetings on 
the Eastern Plains in a small farm town. The government teacher 
of the local high school brought the government class, the 
entire class, to attend the meeting. There weren't many of 
them. But during the question-and-answer period of the meeting, 
a young girl stood up and introduced herself, proudly stating 
that she was graduating first in her class, the valedictorian 
of her senior class, and she had gone to school with those same 
classmates since her kindergarten year, K through 12. She stood 
up and said she was brought in this country when she was only a 
few months old, brought into the country illegally. And she 
asked this question, I will never forget. Do you support in-
state tuition for illegal aliens, she asked. I told her that I 
did not because allowing passage of such a policy was avoiding 
the real problem, it was failing to address the overall need 
for immigration reform and that we can't start with in-state 
tuition because we have to pursue meaningful immigration reform 
first to fix the broken nature of our process before anything 
else could happen. About a month ago, I was in the same small 
town in the Eastern Plains, and I ran into this young girl once 
again, same girl, the valedictorian of her high school, waiting 
tables. Eight years later, we talked once again about the need 
for immigration reform. Eight years later, nothing has 
happened.
    This time, Congress cannot just talk about immigration 
reform. Congress must act. While there will be strong 
disagreement about what to do, how to proceed, and what the end 
policy will ultimately look like, we simply cannot do nothing. 
We must act, and I believe we can do so in a way that 30 years 
from now, 100 years from now, future generations of this 
country, both immigrants and nonimmigrants, can say that back 
then they did the right thing and it is working.
    I would like to thank the Committee for the opportunity to 
testify today.
    Mr. Gowdy. Thank you, Mr. Gardner.
    [The prepared statement of Mr. Gardner follows:]
           Prepared Statement of the Honorable Cory Gardner, 
        a Representative in Congress from the State of Colorado
    Thank you Chairman Gowdy, Ranking Member Lofgren, and the other 
members on this subcommittee for the opportunity to testify today. The 
panel is an important step to address immigration reform in a sensible 
and systematic manner. In my district, immigration is an incredibly 
important matter--for families trying to look for a better way of life 
or agricultural interests hoping to harvest this year's crop.
    The Immigration Reform and Control Act of 1986 proved unworkable 
and too-easily avoidable, and it helped result in approximately eleven 
million people in the United States without documentation. We need 
long-term, common sense legislation to fix this broken system. The 
House is committed to moving forward with a step-by-step process, with 
proper deliberation and debate surrounding each piece of reform. It is 
important that we do this right--proving to the American people the 
federal government can be trusted to build a lasting system that cannot 
simply be put aside because it is unworkable or the political will is 
simply not present to make it work.
    This afternoon, I will share my views on how to move forward. I 
believe any immigration reform effort must begin first with border 
security and enforcement of the law. A strong guestworker program, 
accompanied by a modernized e-verify system, is critical. I will also 
discuss the potential reform for the very young--children--who were 
brought illegally into this country as minors, and possible ways to 
address this issue.
    Many of us elected in 2010 came to Congress because we wanted to 
put this nation back to work. We wanted to get government out of the 
way in order to grow the economy so that people can find jobs and make 
sure there is a better tomorrow. We came to Washington to keep the 
American dream alive, and ensure that this great nation serves as a 
beacon of hope for individuals and families that want to achieve the 
American dream.
    It has been said many times before--the United States is a nation 
of immigrants. Had I not been blessed to have been born in this 
country, I know I would have done everything I could to make sure my 
family had the opportunity to grow up here. We are also a nation of 
laws. Our current immigration laws have proven inadequate and are not 
being enforced. If a law is not enforced or it is ignored, then we no 
longer remain a nation of laws and the law becomes worth little more 
than the paper upon which it is written. According to The Wall Street 
Journal, between forty and forty-two percent of the undocumented people 
in this country came here legally, but overstayed their visas. We need 
to move forward by building a new system of immigration laws that will 
stand strong and secure, but still allow a workable system for people 
that want to be a part of this great nation and healthy economy to have 
the opportunity to do so. I urge the House to be compassionate and fair 
during this process.
    Border security and interior enforcement remain my top priority 
during this debate--it must come first. A government that cannot secure 
its own border is a government that is not doing its job. The same is 
with a government that cannot assure a legal workforce. In 1986, the 
American people were promised interior enforcement during immigration 
overhaul, but this never took place. Ignoring immigration laws for at 
least two decades has resulted in at least eleven million undocumented 
individuals throughout the nation. We can rebuild the trust of the 
American people by securing the borders and enforcing the laws, and 
making sure that no one can simply choose not to enforce the law or 
waive it through administrative process. Not only do strong security 
and enforcement measures need to exist in any reform, but there must be 
confirmation from a credible, outside entity that these measures have 
been satisfied and implemented.
    Once we have secured our borders and are enforcing laws--knowing 
the measures are working--we may look to other reform provisions. 
Today, we are here to specifically discuss those amongst us who were 
brought to the country as young children. These individuals, for all 
intents and purposes, are culturally American. These are the young 
adults and children who grew up in the United States and go to school 
with our children and grandchildren, with my daughter. These children 
know no other nation, except for the United States.
    This is an issue of fairness, decency, and compassion. Their 
parents made a decision to enter this country illegally and our broken 
system did not prevent it. They deserve to be afforded some form of 
legal status that recognizes that they are here through no fault of 
their own. It is not their fault, nor was it their decision to not 
follow the law. I believe Members across the aisle can unite and agree 
that providing these children with some sort of immigration relief is 
the just and fair thing to do. But it must be part of a step-by-step 
reform package.
    Any legislation that would address these children would need to be 
solely for the benefit of the child, and no one else. It cannot elicit 
chain migration. During this process we must find the appropriate 
balance between compassion and justice. While these children remain 
innocent, we cannot reward those family members who have broken the 
law. However, the children do deserve to have the opportunity to 
continue the American dream and we, as Members of Congress, should have 
the compassion to provide them with this. In 2005, I had just been 
appointed to the state legislature. I held one of my first town 
meetings on the eastern plains of Colorado in a small farm town. The 
government teacher of the local school brought the senior government 
class to attend the meeting. During the question and answer portion of 
the meeting a young girl stood up and introduced herself, proudly 
stating that she was graduating first in her class, the valedictorian. 
She had gone to school with her classmates, in the same school, since 
kindergarten. But, she said, she was brought into this country when she 
was only a few months old and she was illegal. ``Do you support in-
state tuition for illegal aliens?'' she asked.
    I told her that I did not, because allowing passage of such a 
policy was avoiding the real problem, it was not addressing the overall 
need for immigration reform. We must pursue meaningful immigration 
reform to fix the broken nature of the process before anything like 
this can happen.
    A month ago, on the eastern plains of Colorado, I saw this same 
girl. The valedictorian of her class, waiting tables. Eight years 
later, I once again talked about the need for immigration reform. Eight 
years later, nothing has happened.
    This time, Congress cannot just talk about reform. We must do it.
    While there will be strong disagreement about what to do, how to 
proceed, and what the end policy will ultimately look like, we cannot 
simply do nothing. We must act. And I believe we can do so in a way 
that, thirty years from now, future generations of this country--both 
immigrants and non-immigrants--can say, they did it right. It is 
working.
    Again, I would like to thank the Committee for the opportunity to 
participate in today's hearing.
                               __________

    Mr. Gowdy. I now recognize our friend and fellow Judiciary 
Committee Member, Mr. Gutierrez.

TESTIMONY OF THE HONORABLE LUIS V. GUTIERREZ, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Gutierrez. Thank you, Chairman Gowdy and Ranking Member 
Lofgren, for inviting me to testify today and to the full 
Committee Chairman, Chairman Goodlatte, for joining us as he 
has during all of these hearings.
    Twelve years ago, I introduced the first bill to legalize 
the status of young people brought to this country by their 
parents, the Immigrant Children's Educational Advantage and 
Dropout Prevention Act, 2001. Since I introduced that first 
bill, the movement for legal immigration, for immigration 
reform, and for legalization has grown broader and deeper. In 
every community today there are young people, religious people, 
women, business owners, immigrant moms and dads and regular 
civic-minded U.S. citizens organizing to make sure we pass 
immigration reform this year in the U.S. Congress.
    Over the August recess, Members of this Committee and 
Members of the House of Representatives will see firsthand that 
the desire for reform is real and present in their communities 
across this Nation. We have recently heard the Speaker of the 
House and the Majority Leader and a wide array of Republican 
voices say they are for legalizing the status of children under 
certain circumstances, including a pathway to citizenship. Wow. 
DREAMers and others who support immigration reform must be 
pretty darn persuasive. After all, look how far we have come in 
such a sort time. Just 8 months ago, the Republican Party 
platform said, deport them all, veto the DREAM Act, and make 
every State pass Arizona S.B. 1070. Just a month ago, all but 
six of the Republicans in the House voted to kill the funding 
for the deferred action for childhood arrivals. Three weeks 
ago, every single Republican on this panel voted to make every 
undocumented young person a criminal.
    But I am not here to chastise you. Rather, I am here to 
say, thank you for taking a step in the right direction of 
justice today. Now let us find a way to walk forward together 
tomorrow. Those of us who have sat at the immigration reform 
table for many, many lonely years are glad you are stepping up 
and engaging in a conversation with us. We need you. Without 
you, we cannot achieve success. If the Republican majority is 
starting with the DREAMers because that is as far as you are 
willing to go in terms of legal status for undocumented 
immigrants, I say thank you for coming this far. Because even a 
small step in the right direction is the first step in any good 
faith negotiation. It says compromise may indeed be within 
reach.
    But let me be absolutely crystal clear and unequivocal, 
legalizing only the DREAMers is not enough. It would not be 
enough, given the years and decades of hard work and equities 
that millions of immigrants have built in this country. It 
would not be enough to satisfy the intense hunger for legality 
in the immigrant community, the desire to pledge allegiance to 
this country, the pride with which so many want some day to say 
``I am an American citizen.'' And it is not enough to restore 
the rule of law and truly fix a broken immigration system.
    I have met with DREAMers and with their moms and dads, and 
I want the same thing for their kids that I want for my two 
wonderful daughters. I want an indivisible family. I cannot 
imagine for 1 minute that Republicans who I know also honor the 
sanctity of family want to legalize the children but leave the 
rest of the family vulnerable to our broken immigration system.
    After the election, I traveled to Missouri to meet with 
United We Dream and other DREAM activist leaders. I was told in 
no uncertain terms that they would not leave their parents 
behind. I will let them speak for themselves because they are 
well and truly capable of doing so, but let me tell you what I 
saw.
    But let me tell you what I saw. I saw a maturity and a 
level of confidence that I think any politician would be a fool 
not to consider. They will not settle for what is good for them 
unless they can also win what is good for their families. And 
do you know what? Do you know why? Because their parents 
instilled values in them. Good and decent kids are raised by 
good and decent parents. If we honor the children for being 
upstanding and, quote, the kind of immigrants we like, then we 
must honor the parents who helped raise them to be upstanding.
    I suspect--no, Chairman Gowdy--I know that there is more to 
come. This hearing and the legislation we understand is being 
prepared by the majority I fully believe is just the first 
step. I am optimistic that once you take one step toward 
justice, you will take a second and a third and as many steps 
as it takes until the thirst is extinguished. I want all of us 
to walk there together.
    Once you see that standing up for young and talented 
immigrants feels good and right, you will want to stand up also 
for their parents who raised and nurtured them. The DREAMers 
will remember, the Nation will remember forever how this 
Congress and this country treated their parents. We have come 
such a long way, and we need to work together to keep America 
moving forward.
    Mr. Chairman, I would like to ask unanimous consent that 
the op-ed written by my colleague, Congressman Mike Coffman, 
titled ``The Time for Immigration Reform is Now''--it was 
published this past Sunday in the Denver Post--be submitted for 
the record. I have traveled to a lot of places but the op-ed in 
the paper that welcomed me on Sunday morning in Denver when I 
arrived this past Sunday is one of the best acts of welcoming I 
have ever received. And I would like that to be introduced into 
the record.
    Mr. Gowdy. Without objection.
    Mr. Gutierrez. And Mr. Chairman, I would like to be 
introduced into the record--consent to submit an editorial from 
the Bakersfield Californian, the hometown newspaper of 
Congressman David Valadao, with whom I shared a stage this past 
Saturday in Bakersfield in his district, and this editorial 
praises him for his willingness to compromise and engage 
Members on both sides of the aisle on the immigration issue. I 
ask that also be included in the record.
    Mr. Gowdy. Without objection.
    [The material referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    [The prepared statement of Mr. Gutierrez follows:]
        Prepared Statement of the Honorable Luis V. Gutierrez, 
        a Representative in Congress from the State of Illinois
    Thank you, Mr. Chairman and Ranking Member Lofgren for inviting me 
to testify.
    I am always impressed by the depth and the breadth of the movement 
in this country for immigration reform.
    Twelve years ago, I introduced the first bill to legalize the 
status of young people brought to this country by their parents, the 
Immigrant Children's Educational Advantage and Dropout Prevention Act 
of 2001 (H.R. 1582). That bill provided legal status to minors who had 
lived in the U.S. for at least five years and who were students.
    Needless to say, Congress never passed that bill or similar bills, 
which is why we are here today.
    At the time, immigration reform and standing up for undocumented 
students was a pretty lonely place to stand.
    But look at where we are today.
    United We Dream, an advocacy group which is represented on our 
second panel today, is just one of many advocacy groups and networks 
that have fought the last dozen years for immigrant students and young 
people. They are diverse, they are sophisticated, they are powerful, 
and--having had various groups of immigrant youth protest at my offices 
over the years--I can tell you, they are persistent.
    Immigrant youth define the pro-immigrant movement and I want to say 
thank you to them for your leadership, your courage, your risk-taking, 
and your selflessness.
    But they are not alone.
    Today, the movement for legal immigration, for immigration reform, 
and for legalization is broad and deep.
    In every community in this country, there are young people, there 
are religious people, there are women, there are business owners, there 
are Latino, Asian and African and immigrant moms and dads, and there 
are just regular, civic minded U.S. citizens organizing today to make 
sure we pass immigration reform this year in the United States 
Congress.
    They stand with the DREAMers.
    And the movement has grown in just the past few years.
    When President Barack Obama was first elected President, I remember 
Congressman Rahm Emanuel, then an immigration reform skeptic, sitting 
me down with Congresswoman Jan Schakowsky in Rahm's Chicago office for 
the sole purpose of counting Democratic votes for immigration reform.
    Our best guess was we had 185 solid Democratic votes for reform and 
we would need 40-50 Republicans to join us.
    For two years, the President, Speaker Pelosi and everyone else 
said, ``We'd love to push for immigration reform, Luis, but bring us 
the 40-50 Republican votes first and we'll talk about it.''
    Not for want of trying, on my part and on the part of the 
Congressional Hispanic Caucus and many others to build support on both 
sides of the aisle, we were fighting against the headwinds of the most 
partisan period in recent American history.
    Even Republicans who stood with us and who had co-sponsored the 
DREAM Act or had co-sponsored the bipartisan bills I wrote with Jeff 
Flake and John McCain and Ted Kennedy--even most of those Republicans 
would not stand openly with us.
    We were unable to show we had 218 votes to pass immigration reform 
in the House.
    Just two years ago, we were not sure we could pass the DREAM Act 
when DREAMers, advocates, parents, educators and Democrats, including 
the President and Speaker Pelosi, were ready to call the vote in 
November 2010.
    A ragtag, informal coalition of Democrats--and one or two stealthy 
Republicans--helped us whip the DREAM Act vote, which took place on 
December 8, 2010.
    We passed the DREAM Act 216-198 and had 208 Democrats on board, 
even better than what Emanuel and Schakowsky and I had calculated a 
year or two earlier.
    We had 8 Republicans join us, and two of them continue to serve to 
this day.
    And you know what? The sun came up the next morning. The world did 
not spin off its axis. We had voted to legalize millions of young 
people, yet civilized society did not crumble.
    Over in the Senate, 55 Senators voted for the DREAM Act but because 
of their arcane filibuster rules, it failed to come to a final vote. A 
minority, mostly--but not exclusively--Republicans were able to thwart 
what the American people and a majority in both Houses of Congress 
favored.
    Flash forward another year or so and the movement is growing still. 
In 2011, there was a limited form of prosecutorial discretion for some 
immigrants, including undocumented youth, which President Obama 
announced as part of an expansion of local police involvement in 
immigration enforcement.
    In 2012, we were asking the President to help stop or slow down the 
massive wave of deportations that were taking a heavy toll on families, 
including DREAMers, in neighborhoods all across the country.
    For almost two years after the DREAM Act filibuster prevented 
passage of the bill, legal scholars and many others joined us to say 
the President had extraordinary powers to examine the deportations of 
DREAMers and suspend them because they were not in the national 
interest.
    The White House said they didn't have these powers under current 
law, but what they really meant was that if they started to dial-back 
the deportations against DREAMers and other groups of immigrants whose 
departure weakened, not strengthened our country--powers that are clear 
in current law and which the former Chairman of this Subcommittee has 
acknowledged the President indeed has--that Republicans, starting in 
this Subcommittee and going all the way to the Speaker's Office would 
take action to stop the Obama Administration if they took any such 
action.
    And they were right.
    The Republicans introduced the HALT Act to prevent the President 
from exercising the executive branch's long-held power of prosecutorial 
discretion. This bill would have suspended certain discretionary forms 
of immigration relief, policies prioritizing the removal of ``criminal 
aliens'' over ``non-criminal'' aliens and the authority to allow a 
case-by-case examination of the deportation of DREAMers.
    But the march towards justice for young immigrants continued 
forward and in June 2012, the President announced he would let people 
who met certain criteria apply to have their deportations deferred, 
making them pay fees and submit fingerprints and documentation that 
they fit the Department of Homeland Security's criteria to review their 
cases.
    In the city of Chicago on August 15th of last year, they came by 
the thousands. Approximately 13,000 young people and their families 
came to Navy Pier to get more information, find out what forms and what 
documentation they would need and, if they were ready, to fill out 
their application right on the spot.
    There were lots of kids, but the people who came out in Chicago 
that day were families. Little kids too young to apply. Teenagers who 
were both timid and all grown-up at the same time, as only teenagers 
can be. We had college students and graduates with degrees and some who 
had to drop out of school to support themselves and their families.
    And lots of Moms and Dads! They came to make sure they found out 
what was going on. They had sacrificed their whole lives to make sure 
their little boy or little girl had a chance in this country and they 
were there to watch out for them, to pray for them, and to help make it 
happen. They were overjoyed that their children were getting a chance 
they wished they had for themselves or for their other children.
    Senator Dick Durbin and Mayor Emanuel and half the elected 
officials in town watched the 13,000 peaceful, hopeful people go 
through that line and we knew we had come so far from 2001 when I first 
introduced my bill.
    We have heard the Speaker and the Majority Leader and a wide array 
of Republican voices say they are for legalizing the status of children 
under certain circumstances. I know as I look at the dais that there 
are votes for the DREAM Act and for legalization of some immigrants 
under some circumstances on the Republican half of the dais.
    The movement we saw earlier in the year towards compromise and 
cooperation is beginning to be visible again.
    Just last November, every single Republican ran on a platform that 
said no to any form of legalization ever.
    In fact, every single undocumented immigrant--according to the 
Party Platform adopted in Tampa--was to leave the country. All 11 
million.
    Your Presidential candidate said they had to self-deport. He said 
the Arizona Law, SB1070, should be the law in every state. He said he 
would veto the DREAM Act if it came to his desk.
    Look how far we have come just in the last eight and a half months. 
Now we have a growing consensus in the Republican Party that 
legalization under some circumstances might be okay.
    Look how far we have come since June 8th. Just over a month ago. On 
that day, the House voted on the Homeland Security Appropriations Bill 
and attached to that bill was an amendment offered by the gentleman 
from Iowa, which said that any funds to protect immigrants from 
deportation who were brought to the U.S. as children were to be 
stripped from the bill.
    Just a month ago, every single Republican who voted--except for 
six--voted for the King Amendment. And every single democrat except for 
three voted against it.
    Just a week or so later, every Republican in this committee voted 
to make every undocumented immigrant--whether they came here with a 
visa and overstayed or if they came across the border or were smuggled 
in without a visa--every single undocumented immigrant into a federal 
fugitive.
    We would dump into the criminal justice system 11 million 
undocumented immigrants and then tell police, if you fail to go after 
them, we will take your federal money away. We will strip the funds 
that you use for community policing to make your neighborhoods safer, 
unless you start the kind of local police roundup activities that made 
Sheriff Joe Arpaio a household name in Spanish coast to coast.
    Every Republican on the full committee voted for the SAFE Act. But 
it gets worse.
    Not only would the undocumented immigrants be federal fugitives 
punishable with time in jail before they would be deported, their kids, 
their parents, their spouses, their landlords, their employers, and 
almost anyone else who has contact with them--could be charged with 
harboring or abetting federal fugitives, given the new authority of the 
States and police to enforce immigration law
    That's possibly another 10, 20, or 30 million people we drop into 
the criminal justice system. And everyone on that side of the dais 
voted for that just two or three weeks ago.
    What I am trying to say is that I have been one of the strongest 
advocates for immigration reform, I learned a great deal from the 
DREAMers, and we must be pretty darn effective.
    Because just eight months after your platform said deport them, 
just a month after all but six of you voted to make every last one of 
them deportable, and just three weeks after every single one of you 
voted for the SAFE Act to make them and their families all criminals, 
here we are at a new turning point.
    I am not here to slam you.
    I am here to say thank you. I am here to say welcome aboard. Those 
of us who have sat at this table and felt lonely are glad you are 
stepping up again to talk this over with us.
    If the Republican Majority is starting with the young people we 
call DREAMers because that is as far as you are willing to go in terms 
of legal status for undocumented immigrants, I say thank you for coming 
this far, because taking a step in the right direction is the first 
step in any good faith negotiation.
    It is the first step that says a compromise may be within reach. It 
is a place we can start.
    Let me be clear, and unequivocal. Legalizing only the DREAMers is 
not enough. It is not enough given all the hard work and equities that 
millions of immigrants have built in this country. It is not enough to 
satisfy the intense hunger for legality, the desire to pledge 
allegiance to this country and the national interest in restoring the 
rule of law.
    But even saying that most of the 11 million are not, in fact, 
leaving and that we must deal with reality in a new and more effective 
way is an important first step towards compromise.
    I suspect there is something else going on. I suspect that this is 
a first step and that there are others to come. This hearing and the 
legislation we understand is being prepared by the Majority is like 
dipping your toe in the water.
    Maybe if you feel comfortable with one toe, we can work with you to 
dip another toe in the water.
    I am optimistic that once you take a step towards justice, you will 
take a second one.
    Once you see that standing up for young immigrants feels good and 
feels right, you will want to do it more.
    They are delightful young Americans who are just as American as my 
kids and your kids, but they don't have that crucial piece of paper 
that says they can live here with the full rights--and 
responsibilities--of my children and your children.
    As Congressman Coffman and Congressman Denham knows, they want to 
join the military. They want to serve this country because it is the 
only country many of them know.
    We are simply talking about the paperwork of our immigration system 
catching up with the reality of our society. And we in this 
Subcommittee and in this Congress can act to make sure that paperwork 
catches up with reality.
    Through this process, you are meeting young undocumented immigrants 
and I challenge you to tell them apart from their other immigrant and 
native U.S. born classmates and neighbors.
    When my daughter brought home friends from school, we didn't check 
the kids' papers. We didn't ask for a birth certificate. And when their 
parents came to pick them up at our house, we didn't ask for their 
papers, either.
    We talked like parents do about our daughters; about how they were 
growing up so fast, about how kids growing up in America have so many 
opportunities and so many hurdles and how things were simpler in our 
day, regardless of whether they grew up in Chicago like me or someplace 
else.
    Their kids were growing up here just like my kids were growing up 
here and probably in some cases, the parents, and maybe the kids, were 
undocumented immigrants.
    The question before us today is not whether we should legalize the 
young people who grew up here. I think my colleagues--not only the 
majority in the House, but a majority of Republicans--would support 
such a bill crafted in the right way.
    In the bipartisan group I am a part of, we are crafting a bill that 
allows DREAMers to legalize their status and get on a quicker path to 
permanent residency. This is the consensus of the group, including 
among our most conservative members.
    But what our bill does is to look not just at the individual 
immigrant, but at their family.
    How can you legalize the status of a teenager and deny legal status 
to their parent?
    How do you slice and dice the family, such that those who were 
brought here as children get one set of circumstances and their older 
siblings get something else? Or their parents?
    I think we should look at immigrants as most of them look at 
themselves. As members of families with different generations and 
different circumstances, but each with a unique and powerful 
contribution to make to American society and to each other.
    We should be uniting and strengthening the family unit, not 
dividing them up.
    George W. Bush said that ``family values do not end at the Rio 
Grande,'' and I think we should examine exactly which side of that 
river he was talking about.
    When I traveled to Missouri after the election to meet with United 
We DREAM and other DREAM activists and leaders, I was told in no 
uncertain terms that they would not leave their parents behind.
    Many of them are among the 400,000 young people who have received 
Deferred Action for Childhood Arrivals or DACA.
    With fees paid, fingerprints taken and criminal background checks 
passed, DACA recipients are in a safe place when it comes to 
deportation and they can work legally and apply for a driver's license 
in nearly every state.
    But despite being in a safe place, they will not leave their moms 
and their dads and their siblings by the side of the road.
    I will let them speak for themselves because they are well and 
fully capable of doing so, but let me tell you what I saw.
    I saw a maturity and a level of confidence that I think any 
politician would be a fool to mess with.
    They are here. They are staying. They are not afraid. And they will 
not settle for what is good for them unless they can also win what is 
good for their families.
    They will remember forever how this country treats their parents. 
Their generation, whether they are immigrants or native born Americans, 
will remember what we do in this Committee in this Congress.
    We have come a long way, but we need to work together to keep 
moving forward.
                               __________

    Mr. Gowdy. Thank you, Mr. Gutierrez. Again on behalf of all 
of us, I full well recognize that you are needed on the floor 
and in Committee and you have constituents that are waiting on 
you and the fact that the four of you would take the time to 
come and testify we are all very, very grateful for your 
perspective and your insight.
    We have another panel, so we will stand down just for a 
moment while the three of you go about and Mr. Gutierrez 
hopefully will join us. And with that, we will be in recess for 
5 minutes.
    [Recess.]
    Mr. Gowdy. I want to thank our first panel again for their 
time and expertise and now turn our attention to our second 
group of witnesses, and we are equally grateful for their 
presence. We will begin, as is our custom with non-Member 
witnesses, by having you rise and take an oath. If you would 
all please rise and lift your right hands.
    [Witnesses sworn.]
    Mr. Gowdy. Let the record reflect all witnesses answered in 
the affirmative. You may be seated. Well, thank you again and I 
am going to read all of your biographies at once and then 
recognize you individually for your 5-minute opening statement.
    And we will start with Dr. Barrett Duke. He is the Vice 
President for Public Policy and Research and Director of 
Research Institute of the Ethics and Religious Liberty 
Commission of the Southern Baptist Convention's Agency for 
Applied Christianity. He has been with the group since 1997.
    Dr. Duke graduated summa cum laude with a BA from Criswell 
College. He received a Master's with honors in Old Testament 
studies in 1985 from Denver Conservative Baptist Seminary and a 
Ph.D. in religious and theological studies from joint doctoral 
program of the, I'm probably not going to pronounce this right, 
let's just say the School of Theology at the University of 
Denver. How is that?
    Mr. Duke. Yes, sir. That works.
    Mr. Gowdy. Welcome. And then we will have Ms. Margie 
McHugh. She will be our next witness, Co-Director of the 
Migration Policy Institute's National Center on Immigrant 
Integration Policy, where she provides in-depth research and 
policy analysis on a broad range of immigrant immigration 
issues. Prior to joining MPI, Ms. McHugh served for 15 years as 
Executive Director of the New York Immigration Coalition, as 
Deputy Director of the New York City's 1990 Census Project and 
as Executive Assistant to New York Mayor Ed Koch's Chief of 
Staff. She is a graduate of Harvard and Radcliffe colleges. 
Welcome, Ms. McHugh.
    Ms. Pamela Rivera is a native of Florida and a daughter of 
immigrants from Colombia. She is a graduate of Florida State 
University and currently pursuing a Master's Degree at the 
University of Florida. She has worked for various nonprofit 
causes, including the Salvation Army. Although she is a United 
States citizen, her sister is an undocumented immigrant who was 
brought to the United States at a young age by her parents. 
Welcome, Ms. Rivera.
    And last but not least, Ms. Rosa Velazquez is a member of 
the National Coordinating Committee of the United We Dream 
Network and Cofounder and Executive Director of the Arkansas 
Coalition for DREAM. She is also a board member of the Arkansas 
United Community Coalition. She was brought to the United 
States unlawfully by her parents when she was 5 years old and 
has resided in Arkansas for nearly her entire life. She is 
currently studying at Henderson State University and Harding 
University where she is pursuing two Master's Degrees, one in 
English as a Second Language and the other in American 
Literature. Welcome, Ms. Velazquez.
    Dr. Duke, we will start with you and then you will have a 
series of light panels in front of you and they mean what they 
traditionally mean in life, green is go, yellow, slow down; and 
red is kind of summarize if you are able to do so. With that 
welcome again, Dr. Duke.

  TESTIMONY OF BARRETT DUKE, Ph.D., VICE PRESIDENT FOR PUBLIC 
     POLICY AND RESEARCH, THE ETHICS AND RELIGIOUS LIBERTY 
         COMMISSION OF THE SOUTHERN BAPTIST CONVENTION

    Mr. Duke. Thank you very much. Good afternoon, Chairman 
Gowdy, Ranking Member Lofgren, and Members of the Subcommittee. 
As you heard, I am Dr. Barrett Duke. I'm the Vice President for 
Public Policy and Research for the Southern Baptist 
Convention's Ethics and Religious Liberty Commission. I 
appreciate the opportunity to speak to the Subcommittee this 
afternoon from a faith-based perspective on the subject of 
children who were brought here by their parents contrary to our 
Nation's immigration laws.
    The Subcommittee is right to view this group of 
undocumented immigrants differently from those who came here as 
adults. These are people who did not make a conscious decision 
to break the Nation's immigration laws. They were brought here 
as minors. This is the only life they know. It is likely that 
they identify more with this country and its culture than they 
do with the country and culture from which their parents 
brought them. This is their home, in other words.
    Our country should not hold these children accountable for 
the choices their parents made. Would anyone in this room want 
to or expect to be held accountable for decisions their parents 
made? I think not. Such distinctions are abhorrent to us as 
Americans. Many of our forebears came to this land to escape 
such types of social stratification. In this land, every person 
is to be judged by his or her own character and 
accomplishments, not those of his or her parents. God Himself 
has pledged such an approach to individual accountability. In 
the Hebrew scriptures, held by me and billions of others as 
God's revealed will, the prophet Ezekiel speaking God's 
pronouncement declared, ``A son won't suffer punishment for a 
father's iniquity and a father won't suffer punishment for the 
son's iniquity.'' If God will not hold children accountable for 
the sins of their parents, certainly we should not either.
    As an evangelical Christian, I rely heavily on the 
teachings of the Bible to help me develop my thoughts about all 
aspects of life, my own and my Nation's. I fully support the 
Biblical teaching of the divine origin and role of government 
as laid out in such passages as Roman's Chapter 13, verses 1 
through 5. However, that passage does not give government the 
freedom to act in any way it chooses. It states that God's 
design for government is to punish bad behavior and to reward 
good behavior. Surely, we would all agree that this is a 
fundamental purpose of government. While every person brought 
to this country illegally as a minor should not qualify for 
special consideration by the Subcommittee, many certainly 
should. Those who are of good moral character and a 
demonstrated desire to make their own way through life should 
be given a chance to come out of the shadows and join in the 
full life and vitality of our Nation. We should, in other 
words, reward their good behavior.
    This is a group of people who embody many of the 
characteristics we value in Americans. This is the spirit our 
Nation celebrates. We should celebrate that spirit in these 
young men and women as well and provide a way forward for them.
    As you consider legislation to assist these children of 
undocumented immigrants to fully prepare for full and 
productive lives in our Nation, here are some things I would 
urge you to consider:
    First, it is difficult to imagine how you can fully address 
their needs without also addressing the needs of the other 
undocumented immigrants in our Nation, including their parents. 
It is my hope and prayer that Congress will see this as one 
piece of a bigger plan that meets the principles of sound 
immigration reform. We can honor the rule of law, secure our 
borders and chart a just and compassionate way forward for the 
millions of other undocumented immigrants living peacefully and 
productively in our midst.
    Second, some parameters are in order as you chart a way 
forward for these young people. I suggested some in my full 
testimony, which you have, like evidence of prior residence in 
the country, enrollment in higher education or some form of 
national service like the military, which you just heard the 
gentleman speak of, completion of high school or a GED, 
granting a provisional legal status while they fulfill their 
obligation, and then eligibility for a green card and 
citizenship afterward.
    I thank the Committee for your willingness to tackle this 
important matter. We are dealing with lives here, not only 
laws. Let justice be blind, but let her also be discerning. 
Their character and drive reveal that these young men and women 
under consideration represent some of the best of what we are 
looking for in our future citizenry. We should welcome them and 
encourage them and empower them to stand tall.
    As we honor them and their commitment, we say to a watching 
world and likely to a watching citizenry that this really is 
still the land of opportunity and promise.
    That concludes my comments. I look forward to attempting to 
answer any questions you might have.
    Mr. Gowdy. Thank you, Dr. Duke.
    [The prepared statement of Mr. Duke follows:]
 Prepared Statement of Barrett Duke, Ph.D., Vice President for Public 
 Policy and Research, The Ethics & Religious Liberty Commission of the 
                      Southern Baptist Convention
    Good afternoon, Chairman Gowdy, Ranking Member Lofgren, and members 
of the subcommittee. I am Dr. Barrett Duke, vice president for public 
policy and research for the Southern Baptist Convention's Ethics & 
Religious Liberty Commission. As you are aware, the Southern Baptist 
Convention is the nation's largest non-Catholic denomination, with 
nearly 16 million members worshipping in more than 46,000 autonomous 
local congregations. The Ethics & Religious Liberty Commission is the 
official Southern Baptist entity charged by the Southern Baptist 
Convention to speak to our nation's moral, cultural, and religious 
liberty matters. I appreciate the opportunity to speak to the 
subcommittee this afternoon from a faith-based perspective on the 
subject of children who were brought here by their parents contrary to 
our nation's immigration laws.
    The subcommittee is right to view this group of undocumented 
immigrants differently from those who came here as adults. These are 
people who did not make a conscious decision to break the nation's 
immigration laws. They were brought here as minors. This is the only 
life they know. It is likely that they identify more with this country 
and its culture than they do with the country and culture from which 
their parents brought them. This is their home.
    Our country should not hold these children accountable for the 
choices their parents made. Would anyone in this room want to or expect 
to be held accountable for decisions their parents made? I think not. 
Such class distinctions are abhorrent to us as Americans. Many of our 
forebears came to this land to escape such types of social 
stratification. In this land, every person is to be judged by his or 
her own character and accomplishments, not those of his ancestors or 
her parents. God, Himself, has pledged such an approach to individual 
accountability. In the Hebrew Scriptures, held by me and billions of 
others as God's revealed will, the prophet Ezekiel, speaking God's 
pronouncement, declared, ``A son won't suffer punishment for a father's 
iniquity, and a father won't suffer punishment for the son's iniquity'' 
(Ezekiel 18:20). If God will not hold children accountable for the sins 
of their parents, certainly we should not either.
    As an evangelical Christian, I rely heavily on the teachings of the 
Bible to help me develop my thoughts about all aspects of life, my own 
and my nation's. I fully support the biblical teaching of the divine 
origin and role of government as laid out in such passages as Romans 
13:1-5. However, that passage does not give government the freedom to 
act in any way it chooses. It states that God's design for government 
is to punish bad behavior and to reward good behavior. Surely, we would 
all agree that this is a fundamental purpose of government.
    While every person brought to this country illegally as a minor 
should not qualify for special consideration by this subcommittee, many 
certainly should. Those who are of good moral character and demonstrate 
a desire to make their own way through life should be given a chance to 
come out of the shadows and join in the full life and vitality of our 
nation. We should reward their good behavior. This is a group of people 
who embody many of the characteristics that we value in Americans. This 
is the spirit our nation celebrates. We should celebrate that spirit in 
these young men and women, as well, and provide a way forward for them.
    As you consider legislation to assist these children of 
undocumented immigrants to fully prepare for full and productive lives 
in this nation, here are some things I would urge you to consider. 
First, it is difficult to imagine how you can fully address their needs 
without also addressing the needs of the other undocumented immigrants 
in our nation, including their parents. It is my hope and prayer that 
Congress will see this as one piece of a bigger plan that meets the 
principles of sound immigration reform. We can honor the rule of law, 
secure our borders, and chart a just and compassionate way forward for 
the millions of other undocumented immigrants living peacefully and 
productively in our midst.
    Second, some parameters seem to be in order. These young women and 
men should be able to prove they were minors when they were brought 
here, and they should have been here for some period of time prior to 
the enactment of your legislation so that we make sure we don't 
encourage a rush into the country by parents hoping to take advantage 
of this country's good will. They should demonstrate that they are 
young men and women of strong moral character, with a commitment to 
their futures. Their legal records and a commitment to pursue some form 
of higher education, possibly college or technical school, or some form 
of service to their country, like joining the armed services, should be 
a sufficient guide for that. As a sign of their good faith commitment 
to pursue these goals, they should have successfully completed high 
school or passed the GED exam. They should be granted a provisional 
legal status that protects them from deportation while they are in 
higher education or some other acceptable activity. Following 
successful completion of their tracks, they should be allowed to apply 
for a green card and eventually citizenship if they desire it.
    As I said earlier, I think you must also consider the parents of 
these young people. They are likely still their principal supporters, 
especially of those who pursue an education track. I do not think that 
you can confer a legal status on their parents through this 
legislation. That should be part of the broader immigration reform that 
must be done. But, until you do that, you should do what you can to 
prevent the use of the children's records as a means to identify their 
parents for deportation. A simple solution might be to seal that part 
of the children's records from governmental inquiry.
    There is also the important matter of cost for those who pursue 
higher education. I know Congress is debating that issue for our 
nation's college students now. You know how much college costs. We 
shouldn't make it impossible for these young, aspiring people to attain 
the goal we have held out to them. If we are serious about helping them 
to reach their full potential, and we should certainly be so, then we 
should do what we can to make it possible for them to obtain some form 
of financial assistance if they need it. The states should decide 
whether they can qualify for in-state tuition. But I would urge you to 
consider whether the federal government can help. Currently, non-
citizens with proper documentation or who meet certain criteria can 
seek federal education funds, like refugees, assylees, victims of 
human-trafficking, and others. So, there is already somewhat of a 
precedent for this.
    I thank the committee for your willingness to tackle this important 
matter. We are dealing with lives here, not only laws. Let justice be 
blind, but let her also be discerning. Their character and drive reveal 
that these young men and women under consideration represent some of 
the best of what we are looking for in our future citizenry. We should 
welcome them and encourage them, and do all we can to empower them to 
stand tall. As we honor them and their commitment, we say to a watching 
world, and likely, a watching citizenry, that this really is still a 
land of opportunity and promise.
    That concludes my comments. I look forward to attempting to answer 
any questions you might have.
                               __________

    Mr. Gowdy. Ms. McHugh.

  TESTIMONY OF MARGIE McHUGH, CO-DIRECTOR, NATIONAL CENTER ON 
   IMMIGRATION INTEGRATION POLICY, MIGRATION POLICY INSTITUTE

    Ms. McHugh. Mr. Chairman and Members of the Committee, good 
afternoon. Thank you for the invitation to appear before you 
today. I've been asked to testify about the broad demographics 
of the population of young, unauthorized immigrants who were 
brought here as children and have since established deep roots 
in this country. Since the more generic analysis of this 
population does not exist, I will rely in my testimony on a 
detailed analysis I co-authored in 2010 of the then DREAM Act 
population which looked at the size and key sociodemographic 
characteristics of unauthorized immigrants who had entered the 
U.S. before age 16 and were continuously present in the U.S. 
for at least 5 years.
    Our analysis found that approximately 2.1 million children 
and youths were potentially either immediately eligible for 
conditional legal status or could become eligible in the 
future. Our study divided the age and date of arrival of 
eligible populations into four subgroups based on their age and 
level of education, and we estimated each group's likelihood of 
meeting the requirements to obtain legal permanent residence, 
which in that case included completion of a college degree or 
at least 2 years of post-secondary education or military 
service.
    Very quickly, the four subgroups broke out as follows: the 
largest was school-age children who would become eligible in 
the future if they graduated from high school or earned a GED 
and completed post-secondary education or military service 
requirements. Forty-three percent of potential beneficiaries 
were in this category, or 934,000 children under age 18.
    The next largest group, at 28 percent, were those who had 
already earned a high school diploma or GED but would need to 
pursue college or military service in order to obtain a green 
card.
    Next, about 23 percent, or nearly 500,000 youths, were 
those over age 18 who lacked a high school diploma. They could 
potentially become eligible in the future if they completed a 
high school diploma or GED and subsequently completed post-
secondary education or military service.
    And, finally, we estimated that about 5 percent, or 114,000 
of the 2.1 million, had already obtained at least an 
associate's degree, and, thus would be immediately eligible for 
a green card.
    You will see in my written testimony that we looked further 
at key sociodemographic characteristics of the population and 
challenges many of these young people would face in completing 
college or being accepted into the military. These included 
affording college tuition and fees, needing to work to support 
themselves or their families, juggling parenting 
responsibilities and closing gaps in academic English 
proficiency. Overall, we estimated that only 38 percent of the 
2.1 million who were potentially eligible based on their age, 
date of arrival and duration of residency would be able to meet 
the educational attainment or military service requirements in 
the legislation proposed at that time.
    Since the cost of higher education and access to financial 
aid are such critical factors affecting college completion for 
low-income youth based on historical trends, we found that 
college affordability was likely to be the most significant 
factor that would prevent young immigrants from completing a 
post-secondary education requirement.
    Our profile of the potentially eligible population is 
consistent with national research demonstrating that young 
immigrants are more likely to be nontraditional college 
students, meaning that they often enroll in post-secondary 
education at older ages, attend college part time, work while 
going to school and juggle family responsibilities along with 
their coursework. All of these factors have been associated 
with lower rates of college enrollment and completion, 
therefore a financial, social and academic support stands to 
play a critical role in the success of this population if their 
pathway to permanent residence and citizenship requires 
successfully making one's ways through post-secondary education 
or military service.
    I would like to point out before closing that more recently 
the Congressional Budget Office estimated that approximately 
1.5 million unauthorized immigrants would meet the age at 
arrival criteria under a version of DREAM included in recent 
Senate immigration legislation. CBO estimated that 
approximately 24 percent of these, 360,000, would be able to 
achieve permanent residence or naturalized by 2023.
    In conclusion, Mr. Chairman, while the MPI and CBO 
estimates are based on different parameters, it does seem clear 
that approximately 1.5 million to 2 million youths meet the 
residency and age at arrival requirements contemplated in 
recent legislative proposals, but far fewer would gain 
permanent residence, and eventually citizenship, under these 
proposals, approximately 825,000 individuals in our analysis 
and 360,000 in CBO's assessment of S. 744.
    In light of the reality that the pathway is a narrow one, 
the sociodemographic characteristics of unauthorized immigrants 
brought here as children provide important considerations for 
policymakers seeking to allow them to successfully achieve 
permanent legal status in the United States and become fully 
contributing members of our society.
    I thank you, Mr. Chairman, for the opportunity to testify 
and would be pleased to answer any questions.
    Mr. Gowdy. Thank you, Ms. McHugh.
    [The prepared statement of Ms. McHugh follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                   __________
    Mr. Gowdy. Ms. Rivera.

           TESTIMONY OF PAMELA RIVERA, WASHINGTON, DC

    Ms. Rivera. I want to take this opportunity to thank 
Chairman Gowdy and the Subcommittee for letting me share my 
very personal story.
    My parents moved to the United States in the 1980's, and I 
was born in 1987 in California. Shortly after my birth, they 
moved back to Colombia with money they had saved working in the 
U.S. and tried to pursue a life there. They had my sister 
Evelyn while we were living in Colombia, and in 1991 when I was 
4 and Ev was 3, they moved back to the U.S.
    They moved back in order to provide a better life for us. 
They wanted us to live without the drugs, violence and daily 
car bombings that defined daily life in Colombia and for us to 
have a chance at obtaining a world-class education and 
fulfilling the American Dream.
    For many years, I did not know about my family's 
immigration status. However, as the years passed, I began to 
understand that my family was not like most. And even though my 
parents worked hard to provide for our family, we would never 
be treated the same.
    My dad worked nights and my mom worked mornings in order to 
make sure that my two sisters and I were never left alone. They 
understood the meaning of family and how important it was to 
raise their daughters in a stable home. My mom learned English 
quickly by volunteering at our school and working with us on 
our homework. I remember my mom asking my teachers to send home 
extra homework even on Fridays so that my sisters and I would 
catch up to other students.
    My youngest sister Sara was born here in Florida in 1993. 
We all grew up in the same home, attended the same schools, 
spoke English, played lacrosse, but there was one major 
difference that would come to dominate our lives. Sara and I 
were natural born U.S. citizens, while my sister Evelyn was 
brought here on a now-expired visa.
    It wasn't until high school that I found out for sure about 
my family's immigration status. There were so many little 
things that would come up what that I could not do, I had to 
work twice as hard to figure out because of the situation. For 
example, I was not able to get my driver's license when I 
turned 16. And I cannot tell you how hard it is as a teenager 
to not be able to drive. As hard as this was for my youngest 
sister and for me, there was always the light at the end of the 
tunnel, we were U.S. citizens. Ev did not have that. She had to 
go through high school graduation knowing that there was no 
relief in sight, no path to college, no path to a normal job. 
She had to walk across that stage and into the shadows.
    The somewhat normal life she had gotten to live in the only 
home she had ever known was over, she also had to walk across 
that stage without our mom watching because our mom a couple 
months before had been pulled over at a traffic stop, arrested 
and forced to leave the country, all of this happening with my 
sister in the car.
    This all occurred while I was a sophomore in college, and I 
cannot put into words the level of devastation this caused. It 
affected my personal well-being, it affected my academic 
success. My sisters and I worked hard in school and all earned 
Bright Futures Scholarships. But unlike my youngest sister and 
I, Evelyn was unable to claim her scholarship because of her 
undocumented status.
    As a U.S. citizen, I have been able to pursue the American 
Dream. I'm a graduate of Florida State University and I'm 
currently pursuing my Master's Degree at the University of 
Florida.
    Living in a mixed-status family, I have learned to cherish 
every moment I have with my family, especially since we've lost 
our mom. As a U.S. citizen, I'm hopeful that Congress finds a 
way to keep this from happening to other families. As of last 
year, it had been over 6 years since Ev had seen her mom. It 
has been over 6 years since her life as she knew it came to a 
halt. This is the only home she knows. She has been here for 21 
years. Yet she is punished every day and forced to live a life 
in limbo for no reason at all.
    The American Dream has been bittersweet for my family. I've 
had to watch my sister and others like her be denied 
opportunities afforded to us in the only country she has ever 
known by what amounts to an accident of birth.
    Thank you so much for letting me share my story.
    Mr. Gowdy. Thank you, Ms. Rivera.
    [The prepared statement of Ms. Rivera follows:]
          Prepared Statement of Pamela Rivera, Washington, DC
    I want to take this opportunity to thank Chairman Goodlatte, 
ranking member Conyers and distinguished members of this committee for 
this opportunity to testify.
    My parents moved to the United States in the 1980's and I was born 
in 1987. Shortly after my birth they moved back to Colombia with money 
they had saved working in the US and tried to pursue a life there. They 
had my sister Evelyn while we were living in Colombia. In 1991 when I 
was 4 years old they moved back to the U.S. in order to provide a 
better life for my sister and me. They wanted us to live without the 
drugs, violence, and daily car bombings that defined daily life in 
their native Colombia; and for us to have a chance of obtaining a 
world-class education and fulfilling the American Dream.
    For many years I did not know about my family's immigration status. 
However, as the years passed I began to understand that my family was 
not like most, and even though my parents worked hard to provide for 
our family we would never be treated the same. My father worked nights 
and my mother worked in the morning in order to make sure that my two 
sisters and I were never left alone. They understood the meaning of 
family and how important it was to raise their daughters in a stable 
home.
    My mother learned English quickly by volunteering at our school and 
working with us on our homework. I remember my mom asking my teacher to 
send home extra homework so that my sister and I would catch up to the 
other students. My youngest sister was born here in the U.S. in 1993. 
We all grew up in the same home, attended the same schools, spoke 
English, and played lacrosse, but there was one major difference that 
would come to dominate our lives: I was a natural born U.S. citizen 
while my sister Evelyn was brought to the United States on a now-
expired visa.
    It wasn't until high school that I found out for sure about my 
family's immigration status. I was unable to get my drivers license 
until I was 18 because my parents could not take me to the DMV. There 
were so many little things that would come up that I could not do or 
had to work twice as hard to figure out because of this situation. All 
of this was with the knowledge that my youngest sister and I were U.S. 
citizens, and that for us there was a light at the end of the tunnel.
    Evelyn did not have that. She had to go through her high school 
graduation knowing that there was no relief in sight--no path to 
college, no path to a normal job. She knew she had to walk across that 
stage and into the shadows, and that the somewhat normal life she had 
gotten to live in the only home she had ever known was over. She also 
had to walk across that stage without our mom watching, because our 
mother was forced to leave under voluntary departure.
    My sisters and I worked hard in school and all earned the Bright 
Futures Scholarship but unlike our youngest sister and me, Evelyn was 
unable to claim her scholarship because of her undocumented status.
    As a Citizen of the United States, I have been able to pursue the 
American Dream: I am an alumna of the Florida State University, and am 
currently pursuing a master's degree at the University of Florida.
    Living in a mixed status family I have learned to cherish every 
moment I have with my family especially since we have lost our mother. 
We have to be proactive on issues. We have to protect our families. It 
has now been over 6 years since Eve has seen our mom. It has been 6 
years since her life as she knew it came to a halt. This is the only 
home she knows, she broke no laws, she did nothing wrong, yet she is 
punished every day and forced to live in limbo--for no reason at all.
    The American Dream has been bittersweet for us. I have had to watch 
my sister be denied the opportunities afforded to us, in the only 
country she has ever known, by what amounts to an accident of birth.
                               __________

    Mr. Gowdy. Ms. Velazquez.

                 TESTIMONY OF ROSA VELAZQUEZ, 
                  ARKANSAS COALITION FOR DREAM

    Ms. Velazquez. I would like to thank Chairman Gowdy, 
Ranking Member Lofgren, and the distinguished Members of this 
Committee for the opportunity to testify today. My name is Rosa 
Velazquez. I'm 30 years old. And ever since I was 5, Arkansas 
has been my home. I'm as Arkansan as the Arkansas Razorbacks, 
the Harding Bisons and the Henderson Reddies.
    I'm honored to be a member of the United We Dream National 
Coordinating Committee. United We Dream is the largest 
immigrant youth led group network in the country made up of 51 
affiliates in 25 States. As a network, United We Dream is 
committed to winning citizenship for our families and 
communities, all 11 million Americans without papers, and to 
creating an immigration system that treats all Americans with 
dignity, parents like my mother who was 22 years old when we 
came to the U.S.
    Sadly, like so many other parents, her story has been 
forgotten. She made the courageous decision to travel alone 
with my 4-year-old brother Rudy and myself. I was 5. My mother 
packed all of our things in a backpack, and in August 1989 we 
got in a plane in Mexico City and we arrived in Dallas, Texas. 
My father Rodolfo would join us a year later in Arkansas.
    Throughout my schooling, I was involved in every club, 
organization and civic group I could be a part of. I have 
always had the desire to be involved but it was in music that I 
found my true passion. I remember that the best performances I 
had were at Ouachita Baptist University where I would later be 
offered a choral scholarship. My parents taught me that our 
family values were greater than anything, and where one went, 
the rest followed. I can remember vividly the day that I 
enrolled at Ouachita Baptist University. My parents went with 
me. They went with me when I chose my classes, when I looked at 
my dorm and when I went into the financial aid office. It was 
at this office that I found out that I was no longer eligible 
for a scholarship. I was undocumented, and I saw my once-in-a-
lifetime opportunity slip through my fingers because I lacked 
legal status. To be fully eligible, I had to be a U.S. citizen. 
It was then that my mother took my hand with tears in her eyes 
and she told me that I could do anything that I set my mind to. 
So if I wanted to go to college, I was going to go to college.
    My mother's hardworking hands are the reason that I'm here 
today and she is also the reason that I am currently a grad 
student at Henderson State University and Harding University in 
Arkansas, and I'm pursuing two Master's Degrees one in ESL 
English and one in American Literature. She is also the reason 
that my brother, Rudy, is going to the University of Arkansas 
in Fayetteville where in 2 years he will achieve a Bachelor's 
Degree in culinary arts. And she is also the reason that my 12-
year-old brother Randy, a U.S. citizen, has high hopes and 
aspirations to attend college in the future.
    Arkansas is the poultry capital of the world. We have 
several poultry processing plants and this is where my mother 
first began her work. Her job for the next 10 years was to cut 
chicken tenders with scissors and arrange them in the little 
yellow trays that you are able to purchase today at any grocery 
store.
    As I sit here today telling you about my achievements and 
my successes, my mother, who has sacrificed everything for me 
with her hard work, is now suffering with carpal tunnel 
syndrome.
    When Members of Congress tell me that I deserve the 
opportunity to earn citizenship and my mother doesn't, I tell 
them that if anyone deserves that opportunity to earn 
citizenship, it is my mother Rosalinda. My mother did what any 
mother facing uncertainty would have done--provide a better 
life for her children.
    This is the land of opportunity where we learned that with 
hard work and perseverance, we have the opportunity to succeed. 
If Congress were to adopt an incomplete solution that would 
provide a path to earn citizenship for DREAMers like me but 
something less for our parents, it be like saying that I can 
now be one of you, but my parent can never be, that our 
hardworking parents are good enough to pick up your crops, to 
babysit your children, to landscape your yards, but they will 
never be treated as equal members of society. The solution that 
includes only DREAMers and people like me will lead to further 
separation of families and will in no way provide the answer 
that you seek.
    Fix our broken immigration system. Do we really want to 
ignore the values that history has taught us by giving our 
parents a sit at the back of the line--bus type of 
legalization?
    I am talented in many fields. I am an asset to this country 
but my mother's hardworking hands are the foundation on which 
this country was built. I am my mother's daughter. She and I 
are equal. My name is Rosa Angela Velazquez Figueroa. I am the 
daughter of Rosalinda and Rodolfo Velazquez and the sister to 
Rudy and Randy Velazquez. I am undocumented. I am one of the 11 
million. And together, we are the American Dream.
    Thank you.
    Mr. Gowdy. Thank you, Ms. Velazquez.
    [The prepared statement of Ms. Velazquez follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   __________

    Mr. Gowdy. I'm only going to say this once. No response 
from the audience. We are going to have order in this. It's 
fine to express yourself internally. No visible response.
    With that, I would recognize the gentleman from Virginia, 
the Chairman of the full Committee, Mr. Goodlatte.
    Mr. Goodlatte. Thank you very much, Mr. Chairman. And it is 
my pleasure to ask some questions of the witnesses and I would 
like to start with you, Ms. Rivera. I very much appreciate your 
testimony and that of Ms. Velazquez.
    Ms. Velazquez said that she didn't think there should be 
any difference between all of the 11 million people who are 
seeking to come here between herself and her mother, for 
example. But you know your parents. You probably know the 
parents of other people who have children who are not lawfully 
present in the United States. And my question for you is, would 
your parents and do you think other parents would be supportive 
of legislation that would allow your sister and other young 
people brought here at an early age to get legal status and 
ultimately U.S. citizenship but did not address their 
situation; in other words, parents' situations in the same way?
    Ms. Rivera. You know that is an incredibly difficult 
question to answer. My parents like I'm sure any other parents 
want what is the absolute best for their children. So you know 
it's easy to say that, yes, they would be very happy with that. 
But at the same time I can tell you that the pain of not having 
my mother with us is something that I really can't put into 
words and it is not something that I feel comfortable saying 
I'm okay with.
    Mr. Goodlatte. Your mother is not here in the United 
States.
    Ms. Rivera. Yes, sir.
    Mr. Goodlatte. But if she were here in the United States 
and she got a different status, say a legal status as opposed 
to a citizenship status, how would she feel about that?
    Ms. Rivera. My mom is, I know everyone says their mom is 
the best, but my mom is the best, and she from the minute they 
came here, as I said in my testimony, she was at my teachers' 
classrooms every day you know helping out, making sure that 
that we, you know, were as involved in our community as 
possible. It was at the time extremely annoying and I can only 
say that when it comes to my family, knowing my mom, she wants 
to be a part of this country. She still thinks, she still 
thinks of herself as an American even though she is in 
Colombia. So, I feel as though my mom would like a shot at 
being a citizen and she wants the opportunity and the 
responsibility that comes with that.
    You know, again, we had up until that happened lived here, 
my parents for close to 20 years before she left. My dad is now 
a legal resident. He lives here. This is for them, what has 
become their lives. It is the only home we have ever known, so 
it is very difficult for me to say we would be okay with that 
and quite frankly, I wouldn't be okay with that. I know the 
sacrifices my parents made. I know the long hours my dad 
worked. I know how hard it was for them to be separated from 
everything they knew as their home, so I wouldn't want to have 
to make that decision.
    Mr. Goodlatte. Well, I certainly understand that you would 
not want them to have to make that decision, but Congress has 
to make that decision. And that is the hard part.
    Let me ask Dr. Duke if you would comment on the problem 
that we have here of determining how we proceed to assure that 
we don't have future children brought here through the desert, 
in the backs of trailers, under tunnels and so on, into the 
United States illegally. So in order for Congress not to be 
back in the same position of debating whether to grant legal 
status to another 11 million illegal immigrants 20 years from 
now, what enforcement kinds of measures does the Southern 
Baptist Convention support being put into place?
    Mr. Duke. Yes, sir. Thank you for the question. It is a 
concern to Southern Baptists as well that we resolve this at 
this time and that we not have to come back here again as well. 
I think most Southern Baptists are saying, secure the border 
and workplace verification. They believe those two components 
would have a lot to do with addressing the future of illegal 
immigration. If folks can't get work here it's going to pretty 
much discourage them from coming. And so we do believe that 
those are a couple of components. There are certainly many 
others that the Committee should consider as well.
    Mr. Goodlatte. And in your testimony you mention that a 
commitment to the pursuit of a higher education or military 
service should be a sufficient guide to show that these young 
people have good moral character and a commitment to their 
futures and thus should be afforded a path to legal status. 
What should happen to young illegal immigrants who do not show 
such a commitment and are not of good moral character?
    Mr. Duke. You know, that is a really tough question in my 
opinion. The legislation under consideration here to me 
requires a certain level of moral character as well as a 
commitment to the future, to their futures and so I think that 
is going to be necessary for this special track for these 
particular young people. I think the rest are going to have to 
simply be considered along with all of the other 10 million or 
so undocumented immigrants in our country that the Committee is 
going to have to figure out how they address. There are going 
to be some adults who aren't going to be able to qualify for 
whatever this Committee, the Committee and ultimately Congress 
chooses to do as well. And, unfortunately, some of those 
children as well are going to be caught in a situation where 
they have made wrong choices and they have made it nearly 
impossible for themselves to find a way for this country to be 
able to grant them the kind of legal status that we would like 
to give them.
    Mr. Goodlatte. Thank you, Doctor. Thank you, Mr. Chairman.
    Mr. Gowdy. Thank you, Chairman Goodlatte. The Chair will 
now recognize the gentlelady from California, the Ranking 
Member of the Subcommittee, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman, and thanks to all of 
our witnesses for simply excellent testimony that not only 
informs us but I think informs people who are watching this 
hearing across the country on C-SPAN and other Members of 
Congress who are watching it in their offices. It is very 
important that you are here.
    Listening to our two young ladies, Ms. Rivera and Ms. 
Velazquez, very powerful testimony that you have given and as I 
was listening to Mr. Goodlatte's, Chairman Goodlatte's question 
I was thinking about the relationship between parents and sons 
and daughters.
    I have a son and a daughter, kind of about your age. I 
would do anything for them. And I think you're saying the same 
about your parents. But here is the problem. When you have, 
when you are pitting sons and daughters against moms and dads, 
you've created really a system that is not healthy. And if I'm 
hearing you right, Ms. Rivera, it's not that your mother 
wouldn't do anything for you, it's that you would not permit 
that. You would not permit your mother to be thrown to the side 
of the road for your benefit.
    Is that kind of a good summary of your position?
    Ms. Rivera. Yes.
    Ms. Lofgren. Thank you.
    Dr. Duke, we've worked together in the past and I 
appreciate very much your testimony. And it's interesting you 
know there are many issues that you and I don't agree on but 
what we have learned is that we can work to things that we do 
agree on and one of those things has been immigration. The 
Ethics and Religious Liberty Commission is part of the 
Evangelical Immigration Table, and the statement released in 
March calling for immigration reform said that it should, and I 
quote, provide clear steps to citizenship for those who want, 
want it and qualify. Dr. Russell Moore, the President of the 
Commission, sent a letter to Congress last month saying that, 
and I again quote, ``A tough yet achievable earned pathway to 
citizenship is a necessary part of broader reform.''
    Is that still your position and the position of the Ethics 
and Religious Liberty Commission of the Southern Baptist 
Convention?
    Mr. Duke. Congresswoman Lofgren, thanks for the question. 
Yes, it is still our position. It is my position that we should 
not be creating second-class citizens in this country. We just 
don't do that here. Everyone should have a full opportunity to 
rise to the, a full opportunity that this country affords them 
and citizenship is certainly a part of being able to do that.
    So we believe, and I certainly believe, that we do need to 
create an opportunity for citizenship for those who can qualify 
by whatever standards this Committee and Congress would choose. 
But we do believe that that should be a component that is 
possible for these folks.
    Ms. Lofgren. Thank you very much. And I hope that the 
faithful here in the House will listen to your words of advice.
    Now when the House last took up the DREAM Act some Members 
took to the floor and they called it the Nightmare Act. They 
said that allowing these young people to come out of the 
shadows and have an opportunity to earn legal permanent 
residence, and possibly also in the future citizenship, would 
prevent Americans from getting jobs and realizing other 
opportunities.
    How would you answer that attack, Dr. Duke?
    Mr. Duke. Well, certainly, we are in a situation in our 
country right now where we don't have enough jobs it would 
seem, but we also have a lot of jobs that are simply going 
unfilled, and so, clearly, we need more workers in certain 
areas than we have right now. We know that business is looking 
for more workers currently. So clearly there is still a need 
for more workers in this country. The best thing that we can do 
is create as well qualified and educated a workforce as we 
possibly can. We have all of these young folks here right now, 
what, over 1 million, who can be brought fully into the 
workforce and can meet a lot of those needs that we already 
have and as we continue to grow our economy we are going to 
need more workers and eventually everybody who wants a job, a 
full-time job is going to be able to find one. So I think this 
country needs more workers not less workers.
    Ms. Lofgren. Thank you very much. I'll just close by saying 
you know whenever we have a hearing like this I'm so struck by 
the courage shown by undocumented individuals. I think of them 
as aspiring Americans. And I remember my grandfather who came 
to this country when he was 16 years old with nothing. His 
process then was he got on a boat, it sailed to America and he 
got off the boat. He never saw his parents again. But he wanted 
to be an American just like you want to be an American. And he 
and generations of aspiring Americans came and really built 
this country.
    And to think that our future will not be enriched by people 
who want to, who have enough hope and enough courage and enough 
ambition to want to be a free American, to help build our 
country, that that future would not be enriched is just a 
mistake because through aspiring Americans, people who want to 
come and throw in their lot with us and build a better country, 
our future will be strengthened. And I don't think we need to 
ration that. I think we ought to embrace that. Just as 
immigrants built our past they will help us build a great 
future for Americans.
    So thank you all for your wonderful testimony today.
    Mr. Gowdy. I thank the gentlelady from California. The 
Chair will now recognize the gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman. I appreciate being 
recognized, and listening to the testimony of the witnesses 
here, gathering my thoughts and trying to digest what's been 
taking place here today, and I think the first question I would 
ask is, Ms. Velazquez, and your testimony here I could hear the 
emotion in your voice and would you characterize the life you 
have had here in the United States as, you individually, living 
in the shadows?
    Ms. Velazquez. I'm sorry?
    Mr. King. Would you characterize your life living here in 
the United States as living in the shadows?
    Ms. Velazquez. Living in the shadows wasn't an option for 
me. There were--I was a voice to some members of my community. 
Some of the kids that were going to college there, that were 
wanting to go to college came up to me and I had to voice 
myself to them and let them know that----
    Mr. King. So you wouldn't characterize your life as living 
in the shadows here?
    Ms. Velazquez. No, sir.
    Mr. King. Thank you. I appreciate knowing that.
    I turn to Dr. Duke. And listening to your testimony and you 
cited Ezekiel 18:20 in that I would call it the sins of the 
father section. But I understand that point that the sins of 
the son shall not be punished by the father--onto the father 
and vice versa. But I look at that and I also I read through 
the rest of your testimony and the balance of what you said, 
and it appears to me that neither would you punish the parents 
for bringing their children here, you just wouldn't do so in 
this bill.
    Did I read that correctly?
    Mr. Duke. Thank you for the question, Congressman. No, I'm 
not saying we shouldn't hold the parents accountable for the 
choices that they made. There do need to be appropriate forms 
of restitution and penalty if these----
    Mr. King. But you wouldn't apply current law to them, you 
would exempt them from current law and want to write a new law 
that would be less onerous than the penalties in current law 
for the parents?
    Mr. Duke. Yes, sir, I think what we are saying is we are, 
or at least what I'm asking you is to create another set of 
penalties for the law other than the penalty that currently 
exists.
    Mr. King. Would this be under the concept of mercy?
    Mr. Duke. Well, mercy at the very least, but also in my 
opinion simply a matter of practicality and humanity.
    Mr. King. Mercy at the very least. Can you cite--and you 
are, no question, a Biblical scholar. Can you cite any place in 
the Bible where mercy is not accompanied by repentance?
    Mr. Duke. Well, Congressman, I simply know that God says, I 
will have mercy on whom I will have mercy. So He gets the 
freedom to choose whether or not----
    Mr. King. We're pretty sure he calls for repentance, 
though, aren't we, as Christians?
    Mr. Duke. He gets to choose under which circumstances He 
wants to have mercy, and we get to choose the circumstance 
under which we choose to have mercy.
    Mr. King. Let me suggest that we couldn't teach 
Christianity without repentance being a component of it, 
however. And I just, I wanted to make that point but also, I 
know that the Southern Baptist Conference has cited Matthew 
25:35 for I was a stranger and you let me in.
    Mr. Duke. Yes, sir.
    Mr. King. And that is a central theme, also, which I'm a 
little surprised isn't in this testimony, but I would expect 
that you would adhere to that proposal as well, that 
theological philosophy?
    Mr. Duke. Yes, sir, that's correct.
    Mr. King. So are you aware, when we see that word 
``stranger,'' and when you look back through the Greek which is 
the foundation of the interpretation that most of the modern 
day Bible that I know, the word stranger is the Greek word 
xenos, x-e-n-o-s. And are you aware that that really means 
within that context in Greek guest foreigner, an invited guest, 
rather than someone who came in against the law?
    Mr. Duke. Yes, sir. I understand that there are various 
understandings of how that word is to be interpreted in that 
passage.
    Mr. King. So you wouldn't interpret Mathew 25:35 to mean 
you are commanded by God to welcome anyone that comes into your 
country or home regardless of whether they were invited or 
whether they were uninvited?
    Mr. Duke. I don't think--yes, sir. I think that is correct. 
We are not required to invite anyone who simply comes along 
into our homes. But we are required to express hospitality 
toward those, as many of those as we can.
    Mr. King. Towards invited guests, according to the Greek 
interpretation I would suggest.
    Mr. Duke. Pardon?
    Mr. King. Hospitality toward those invited guests, 
according to the Greek interpretation of the word xenos, 
stranger, invited guest.
    Let me move on. Also St. Paul gave a sermon on Mars Hill, 
it's in Acts 17. And in that he said, and God made every Nation 
on Earth, and He decided when and where each Nation would be, 
and He granted that authority to the elected officials within 
the countries to set the border and to control the border. And 
that is the definition of sovereignty as I understand that.
    Would you have a different understanding of St. Paul's 
sermon on Mars Hill?
    Mr. Duke. No, sir. I think that God does give human beings 
the freedom to create their own borders and to establish their 
own laws.
    Mr. King. Thank you very much. I appreciate all the 
witnesses.
    Mr. Chairman, I yield back.
    Mr. Gowdy. The Chair would now recognize the gentleman from 
Michigan, the Ranking Member of the full Committee, Mr. 
Conyers.
    Mr. Conyers. Thank you, Mr. Chairman, and welcome to all of 
our witnesses.
    I'm very impressed by the overall direction that all of the 
witnesses have made, their understanding of how we deal with 
not only the DREAMers but with their parents as well. One thing 
that concerns me is that sometimes we manage to keep the 
DREAMers in and there seems to be a growing tendency in that 
direction in the Congress. But the separation of the children, 
the DREAMers, from their parents, is something that still 
troubles me. And I'd like to just go down the witness list and 
see if you share any of this unease with me.
    And I always like to start with the Vice President of the 
Southern Baptist Convention. One of these days we're going to 
get a witness from the Northern Baptist Convention here, but it 
hasn't happened yet.
    Mr. Duke. There aren't as many of them.
    Mr. Conyers. That's a good reason.
    Mr. Duke. I thank the Congressman. I do share concerns for 
the parents of these young men and women. They're in a 
different circumstance, however, because they purposefully have 
violated the law. So it's difficult for me to see how we can 
address the circumstance for these particular young people and 
then also address the parents' needs without talking about a 
full immigration solution.
    Mr. Conyers. Comprehensive.
    Mr. Duke. Yes, sir, a complete immigration solution that 
would address not only their parents but the parents of 
children who were born here as well who also need their 
circumstances to be addressed.
    Mr. Conyers. And might I ask you for your feelings on this 
part of the discussion?
    Ms. McHugh. I would just say that our organization is 
focused on analysis of policy options facing the Congress, and 
so it's not the sort of way that we would approach the, 
approach an issue.
    Mr. Conyers. That means that you wouldn't think of it as 
comprehensive or that we could create a path for citizenship 
even for the parents although they have without doubt violated 
some of our immigration rules but we always start off here by 
saying, on both sides of the aisle, that the immigration system 
is broken. So it's not a matter of worrying too much about 
these rules, it is can we construct some others? And do you 
have an idea on that?
    Ms. McHugh. Perhaps I was listening to your question with 
too formal an ear. I thought you said did I have a feeling of 
concern about that. I would say for my organization overall 
that a great deal of our policy analysis over the years has 
focused on the need for more comprehensive approaches to reform 
if we are to fix the system. But I would just say that there's 
a distinction between that and the question that you had asked.
    Thank you.
    Mr. Conyers. Oh, thank you.
    Ms. Rivera, what say you?
    Ms. Rivera. Obviously, I am supportive of comprehensive 
immigration reform, anything that helps families stay together. 
I think that that is the epitome of at least what my family, 
what I was raised on. I think it's for the well-being of 
children, and I just think it's for the well-being of America 
because you know the family unit is probably the most important 
unit we have in society.
    Mr. Conyers. So what about the parents? Do you think that 
we keep the DREAMers and work out a way for them a path for 
citizenship? But what bothers me is what do we do with the 
parents? Do we kick them out? Do we separate? Do we separate 
them from their children who were born here in the country?
    Ms. Rivera. No. I don't think that that is, I don't think 
that that is a real option. I think that that can cause lasting 
damage. I can tell you, I recently got married, I got married 
last month and had to go through the decision of trying to 
figure out how to do a wedding because I have my sister who 
cannot leave the country, and I have my mother who cannot come 
into the country. So I was engaged for 2 years hoping that some 
type of solution would occur and that at the very least my 
sister would be able to travel to Colombia. So finally we just 
had to give in and we had to get married. And it was wonderful 
but my mom was there via face time.
    Mr. Conyers. Thank you so much.
    Mr. Chairman, could I get a response from Ms. Velazquez, 
even though my time is expired?
    Mr. Gowdy. Certainly, Mr. Conyers. Ms. Velazquez, you may 
answer Mr. Conyers' question.
    Ms. Velazquez. Thank you. At home I was taught that what 
this country was found on family values, Christian values, 
courage, equality and justice. I hope that this hearing is the 
first to addressing not only a resolution for me but for my 
parents as well.
    Mr. Conyers. Thank you very much and thank you, Mr. 
Chairman.
    Mr. Gowdy. I thank the gentleman from Michigan. The Chair 
will now recognize the gentleman from Ohio, Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Let me thank all the others. It's very good testimony, 
compelling emotional testimony we appreciate that. Let me go 
right to where Mr. Conyers was.
    Ms. Velazquez and Ms. Rivera just for the record so we're 
all clear, you obviously support a path for citizenship for 
DREAMers and you would support a path for citizenship for 
parents as well? Ms. Velazquez?
    Ms. Velazquez. Yes, sir.
    Mr. Jordan. Ms. Rivera?
    Ms. Rivera. Yes, sir.
    Mr. Jordan. How about you, Ms. McHugh?
    Ms. McHugh. I'm sorry, a path----
    Mr. Jordan. A path to citizenship for DREAMers is what 
we're talking about today. Would you also support a path to 
citizenship for parents?
    Ms. McHugh. My organization isn't an advocacy organization 
and so we don't take positions.
    Mr. Jordan. I'm asking you as a witness in today's hearing 
what do you think?
    Can you speak on your behalf of yourself or you can only 
talk about your association?
    Okay. How about Dr. Duke?
    Mr. Duke. Congressman, thanks for the question. Yes I 
believe there should be a way forward for citizenship for these 
others as well.
    Mr. Jordan. Okay. Let me go back to Ms. Velazquez. What 
about the rest of the estimated 11 million illegals here? Do 
you support a path to citizenship for those individuals? Ms. 
Velazquez?
    Ms. Velazquez. Yes, sir. I support a path to citizenship 
for the 11 million.
    Mr. Jordan. Ms. Rivera?
    Ms. Rivera. Yes, sir.
    Mr. Duke.  Yes, sir.
    Mr. Jordan. You guys do? The Southern Baptists have taken a 
position on that?
    Mr. Duke. Restate your question so I can answer it then, 
please.
    Mr. Jordan. We all know you are for the DREAMers. We all 
know you're for parents except Ms. McHugh doesn't want to 
respond to that. Ms. Velazquez and Ms. Rivera also are for the 
rest of the estimated 11 million who are here illegally, a path 
to citizenship. I just want to know where the Southern Baptists 
are.
    Mr. Duke. Yes, sir. In our resolution in 2011 we did call 
for legal status for the undocumented immigrants here in our 
presence in this country and in further reflection since then 
most Southern Baptists are also asking for a way forward for 
citizenship for these 11 million as well, and that certainly 
would be my position.
    Mr. Jordan. That's your position and it's the position of 
the Southern Baptists?
    Mr. Duke. The Southern Baptist Convention has not stated 
officially that that is its position.
    Mr. Jordan. Ms. Velazquez, do you support the comprehensive 
bill passed by the United States Senate?
    Ms. Velazquez. I support a pathway to citizenship for 11 
million undocumented immigrants.
    Mr. Jordan. Have you looked at the Senate bill?
    Ms. Velazquez. Yes, sir.
    Mr. Jordan. And you are for it or against it?
    Ms. Velazquez. It has a path to citizenship, so I support a 
path to citizenship.
    Mr. Jordan. Ms. Rivera, can you comment on the Senate bill? 
Are you for The Senate bill?
    Ms. Rivera. Yes, I am.
    Mr. Jordan. Ms. McHugh, have you taken a position on the 
Senate bill?
    Ms. McHugh. No, we have not.
    Mr. Jordan. Dr. Duke, have Southern Baptists taken a 
position on the Senate bill?
    Mr. Duke. The Southern Baptist Convention has not taken a 
position on the STEM bill. My organization, the Ethics and 
Religious Liberty Commission----
    Mr. Jordan. No, no. I'm talking about the Senate bill, as 
passed by the Senate.
    Mr. Duke. Oh, the Senate bill. No, sir, we have not. We 
have simply said we believe it is a good step forward but it 
needs some repair and needs some work and we are looking to the 
House to help address some issues.
    Mr. Jordan. Last question for you, last question, Mr. 
Chairman and it's for you, Dr. Duke.
    The Southern Baptist Convention, you said you believed 
they're for a pathway to citizenship for the 11 million even 
though you haven't taken a formal position. Is there anything 
in what you perceive as the position of the Southern Baptists 
that says border security must happen before there is a pathway 
to citizenship for those, for the estimated 11 million folks in 
the country illegally?
    Mr. Duke. Yes, sir. I would say that most Southern 
Baptists, and certainly myself, believe that we need to make 
sure the border is secure before citizenship is possible. But 
we do believe that we do also need to address the circumstances 
of these 11 million and that it needs to be done as a package 
in order to make sure that all of the needs of our Nation and 
of these undocumented immigrants are addressed.
    Mr. Jordan. Okay. Do you have any--I said last question but 
I changed my mind here, Mr. Chairman. I've got one more for Dr. 
Duke.
    Do you have any concern--Mr. Gutierrez and the passion he 
brings to this issue we all respect. But he talked about in his 
statement that, you know, if, in fact, we pass a DREAM Act for 
young people that well, we're going to have to make sure we do 
it for parents because we can't have this--are you at all 
concerned about where it goes and the logical steps that Mr. 
Gutierrez has pointed out and all of you have pointed out, that 
it travels that way before we have a chance to actually secure 
the border and maintain the border as a sovereign Nation? Does 
that concern you at all, Dr. Duke, and the Southern Baptist 
Convention?
    Mr. Duke. Congressman, it does concern me that we may not 
get to the place where we secure the border. And I'm looking to 
you to make sure that there is a mechanism in place that 
assures us that the border is secured before permanent legal 
status is applied, but that doesn't mean that you can't do 
something intermediate in the meantime so that these folks here 
can at least know that they no longer have to live under the 
fear of deportation while our country is resolving this 
problem.
    Mr. Jordan. Great. Thank you, Mr. Duke. Thank you, Mr. 
Chairman.
    Mr. Gowdy. I thank the gentleman from Ohio.
    The Chair would now recognize the gentleman from Illinois, 
Mr. Gutierrez.
    Mr. Gutierrez. Thank you very much, Mr. Chairman, and thank 
you to all the witnesses. It was a very compelling and very 
moving testimony. I'm delighted that you're here and I'm 
delighted that we're having a hearing that I think really 
broadens the perspective of this Committee. And I'd like to 
take the opportunity to say that, to Ms. Velazquez, you love 
your mom?
    Ms. Velazquez. Yes, sir. I love my mother.
    Mr. Gutierrez. After you described her, I love her too. And 
I want her to be part of your life.
    Ms. Velazquez. Thank you. I'll let her know that.
    Mr. Gutierrez. And I know that, Ms. Rivera, you know, you 
have two siblings, right?
    Mr. Rivera. Yes, sir.
    Mr. Gutierrez. One of them out of status, the other one an 
American citizen like you. How do you feel, how important is it 
to you as an American citizen that you get your mom back? How 
important is it?
    Ms. Rivera. It would mean a lot. It's hard because there 
are so many things that you just want to call your mom and tell 
her about. There are so many little instances that people don't 
have to think about and don't even realize or, you know, that 
you take for granted. I've had to, I've had to experience that. 
I know how difficult it is and I can't imagine how difficult it 
must be for my mother always living in fear and never knowing 
if something happens to her kids, knowing that she cannot be 
there for them.
    So you know I understand this issue is incredibly 
complicated, and I'm very happy not to have to do this myself 
but I believe that Congress has the ability to do it and I 
would love to have my mother back.
    Mr. Gutierrez. Thank you. As we look at it, and as I look 
at it, I try to look at it through the prism. I have two 
daughters. I can't imagine what their life would be like 
without their mother. There are certain things that dads don't 
do. There are certain parts of life that dads don't fill in. I 
am kind of like the--I am the concierge. You know, need a 
ticket. Okay. Call Dad, he'll get you a ticket. Need to learn 
to drive a car, call Dad. Need somebody to take you to the 
university to go check it out, call Dad. I do those kinds 
things of things. Flat tire, call Dad. Right? Then there's all 
the other stuff that moms do, that parents do. I am not trying 
to diminish what we as men do and the relationship we have. But 
moms are pretty important in people's lives. So we should 
think. I don't think about them as much. I say to my 
colleagues, I think simply about ourselves. And I think about 
what our relationship is to our children and how important I 
know every member of this panel is and has been and will 
continue to be to their children. And to simply look at it from 
your own prism in terms of your own children and what would 
their lives be like without us, I don't think it would be the 
same.
    And I just want to say that, look, this isn't about the 
Senate bill. We can draft one here in the House of 
Representatives. We have the skills and we have the knowledge 
and I know that we have the fortitude to get us through those 
debates and those discussions. And so it is not about amnesty.
    I mean, I look at the Senate bill and I say to myself, we 
really want it. I mean, we are saying 10, 15, 20, 25 years. Ms. 
Velazquez. Every cent that an undocumented person like your 
mother has spent and sent to Social Security Trust Fund, gone. 
Vanished. Confiscated in the Senate bill. Ten, 15, 20, 25 
years. Work for the next 10 years. I came to Congress to have 
comprehensive healthcare for everybody. Gone. Eleven, 10 years, 
you want to get legalized, don't expect a cent of subsidy. And 
pay every tax imaginable and fulfill every financial 
responsibility. And don't expect one means tested program. Not 
one.
    And in 10 years, kind of forget about bringing your 
brothers or your sisters, because those are costs. Those are 
gone. And then if that wasn't enough, 20,000 more border patrol 
agents. But you know what, it is worth it what you are doing. 
What we are doing is worth it. It is worth it to sit down. And 
I want to extend another hand to the other side of the aisle to 
say all those things, I don't like them, but I am ready to 
accept them. Because the alternative is the kind of pain that 
you hear about from that young lady. And you have to multiply 
what they said here millions of times. I just want you to think 
of those millions of tears each and every day, the pain and the 
devastation that exists in our community.
    So thank you for the personal testimony. Thank you for 
humanizing this issue for all of us, and because I think that 
is going to help inform this Committee better than any 
statistics can. Thank you so much.
    Ms. Velazquez. Thank you.
    Mr. Gowdy. I thank the gentleman from Illinois.
    The Chair will now recognize the gentleman from Idaho, Mr. 
Labrador.
    Mr. Labrador. Thank you, Mr. Chairman.
    Ms. Rivera, I only disagreed vehemently with one thing that 
you said in your testimony, and it's my mom is the best. So, 
no. I just have a few questions for you. And I appreciate both 
of you testifying today. But I want to talk about the realities 
of immigration. The immigration system that we are currently 
living under.
    Are you familiar, Ms. Rivera, with the immigration system 
back in Colombia, what it is like?
    Ms. Rivera. I'm not. No.
    Mr. Labrador. Do you know what would happen if I entered 
the country illegally today in Colombia?
    Ms. Rivera. No, sir.
    Mr. Labrador. Okay. Do you know what would happen to my 
kids who I would bring into Colombia illegally?
    Ms. Rivera. No, sir.
    Mr. Labrador. I suggest to you the treatment would be 
vastly different than the treatment that you and your family 
would receive here in the United States.
    Now, since you came before us, and I don't like to ask 
personal questions, but you've testified about some personal 
issues. You said that your mom--you said you are a U.S. 
citizen; correct?
    Ms. Rivera. Yes, sir.
    Mr. Labrador. And your mom can't come here to the United 
States. How is that possible when you are a U.S. citizen? What 
exactly is happening?
    Ms. Rivera. My mom, when I was a sophomore in college, she 
was pulled over for a minor traffic citation, was then 
arrested. And I believe she was--she was then arrested. And 
then at some point ICE got involved. She was taken to a 
detention center. You know, unfortunately for us, at the time, 
you know, I was not aware of all the different things----
    Mr. Labrador. I just want to--I want to clarify something. 
She was arrested. She was returned to Colombia. Is that 
correct?
    Ms. Rivera. She was taken to a detention center and then a 
couple months later she was then----
    Mr. Labrador. And you are over the age of 21.
    Ms. Rivera. Not at the time.
    Ms. Rivera. But today you are.
    Ms. Rivera. Yes, I am.
    Mr. Labrador. Why can't you apply for her?
    Ms. Rivera. I have. Her visa was approved in the U.S. and 
then when she went to the embassy in Bogota, she was denied.
    Mr. Labrador. Do you know why she was denied?
    Ms. Rivera. They said that she automatically, for leaving 
the country, the 10-year ban was----
    Mr. Labrador. So did you file a waiver for her?
    Ms. Rivera. My father--so complicated.
    Mr. Labrador. Just yes or no. I know this is difficult.
    Ms. Rivera. He has since then.
    Mr. Labrador. And they haven't approved that yet.
    Ms. Rivera. No.
    Mr. Labrador. But there is a way for your mom to come if 
you file a waiver and all those things. And the only point I am 
trying to make, I am not trying to embarrass you or put you on 
the spotlight, is one of the things that we are talking about 
doing here in the House of Representatives is actually removing 
some of these waivers that are actually preventing people who 
have been removed from the United States from coming back 
legally. And that is something that if we could pass in some 
legislation, you know, that would actually help you and your 
family, and it is one of the things that I am trying to 
accomplish.
    Now, Ms. Velazquez, you--in your testimony, you said some 
things that I found frankly a little bit hard to understand. 
You said, ``If Congress were to adopt an incomplete solution 
that would provide a path to earned citizenship for Dreamers 
like me but something less for our parents, it would be like 
saying that I can now be one of you but my parents can never 
be.'' And then you also said, ``Do we really want to ignore the 
values that history has taught us by giving our parents a seat 
at the back of the bus type of legalization?"
    That is actually highly inaccurate. And it is highly, I 
think, a little bit dismissive of our current immigration 
system. Are you familiar with the H-1B process at all?
    Ms. Velazquez. I am not.
    Mr. Labrador. Right now, if I came to the United States 
legally, so not coming illegally, I came to the United States 
as an H-1B worker, which is somebody who works in--as a guest 
worker in the high tech industry or requires a college degree, 
and I had children in the United States, they would become 
citizens. But I would not be necessarily--I would--I don't have 
a right to become a citizen of the United States. I could apply 
for citizenship, but there is nothing that technically says I 
would have to become a citizen. And there are millions of 
people who come to the United States who have children and they 
still have to leave even though they came here legally. Are you 
aware of that?
    Ms. Velazquez. I did not know that.
    Mr. Labrador. So it wouldn't be treating your family any 
different than we treat the millions and millions of people who 
actually come legally to the United States and they don't have 
a right to stay in the United States. Now, I want to find a way 
to make--to help the 11 million. I don't have a problem with 
that. But to come here to Congress and say that we are putting 
your parents in the back of the bus when we are treating them--
we would treat them the same that we would treat anybody else 
who came here legally who doesn't have a right to citizenship, 
I think you need to really rethink your rhetoric. Because there 
are people that are here legally that don't become citizens of 
the United States, and they have children here, and they have 
the same values, the same beliefs, the same everything that you 
have, but the law does not allow them to become citizens. But 
yet they can actually stay here as guest workers in many, many 
industries.
    I want to find a solution for this problem. I want us to 
treat everybody fairly. But, like I said in my opening 
statement, the most important thing for me is the rule of law, 
making sure that we prevent having this problem again 10 years 
from now, 20 years from now. Because, frankly, that is not fair 
to either one of you. If we continue to have these problems for 
the next little while, then there is going to be another Ms. 
Rivera and another Ms. Velazquez who is going to be coming here 
to Congress and telling us about the compelling story about 
their families and how their families now need to have a new 
legal status.
    So I want to help you, I want to help your families, but, 
most importantly I want to make sure we fix the problems that 
we have so we don't have to have this conversation again. Thank 
you very much for being here today.
    Mr. Gowdy. Thank the gentleman from Idaho.
    The Chair would now recognize gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Let me thank the Chairman. And I join with 
the idea that whenever we make steps toward improving lives and 
act as legislators, we are really doing the right thing because 
that is a challenge and the charge that we have been given in 
this Congress, is to come to help fix America's problems.
    I want to acknowledge my appreciation for all of the 
witnesses. But I do want to thank in particular who I saw 
earlier, Ms. Velazquez and Ms. Rivera. Because along with your 
knowledge, there are personal stories that are being told.
    And, Ms. Rivera, I can't thank you enough for discussing 
something so personal. And I think if we can all appreciate 
each other's humanity that what we are talking about is not the 
nuts and bolts of moving checkers on a chess board, checkers 
board or chess on a chess board, but we are really talking 
about human lives. And I believe that we have held human lives 
in the balance too long. This has been going on too long. The 
key to this is not presupposing or predicting ill and disaster 
and devastation, but to look at the Senate bill as a marker in 
terms of attempting to frame, Dr. Duke, the relief this time so 
we don't have the idea of someone being able to say this will 
happen again.
    Dr. Duke, I want to pose this question to you. We thank you 
for representing the Southern Baptists. This morning, we were 
with the evangelicals, who have made a commitment and have 
embraced, I guess, people from different faiths. And they 
believe it is time to move--really on the--the human aspect of 
it. As you listened to Ms. Rivera, Ms. Velazquez, you know, 
this is a comprehensive pathway to citizenship. There is a 
crack in the armor when you suggest that you will take the 
children. I know that some years back, the Ranking Member and 
myself worked on--in various ways and then together--the idea 
of what kind of facilities children are in, young people are 
in, under the age of majority. Previously, in detention 
centers, it wasn't a pretty scene. It wasn't a pretty scene 
when you had to separate families. So the human question arose. 
The idea of human trafficking, which I know the church has 
worked on, is dastardly. I come from a city that has an 
enormous problem in human trafficking, and it is not an 
international city, it is Houston.
    So my question to you is, do you see the value in taking 
the comprehensive approach and regularizing family members, 
agricultural workers, tech workers, other skilled workers that 
really reins in what I think our friends have been speaking of 
through this hearing?
    Mr. Duke. Thank you for the question, Congresswoman Jackson 
Lee. Yes, we believe that we do need to address the entire 11 
million or so undocumented immigrants here, that the family 
unification is an important aspect of immigration reform. The 
question for us with the--with this particular question on 
these particular children to us is a little different than 
their parents simply because the children didn't break any 
laws. And so I just don't see how you can address the parents 
who did break laws of that particular group differently than 
you address all the other parents of children who broke the 
law. That needs to be addressed in a bigger package of bills 
that we believe this--that you are working on and that we are 
hopeful you will continue to work on. And that this particular 
aspect of it, just these particular children just become one 
part of the entire package that does ultimately assure us 
family units.
    Ms. Jackson Lee. So you can support comprehensive 
immigration reform?
    Mr. Duke. Yes, we support a full immigration reform.
    Ms. Jackson Lee. Let me ask, get these questions out before 
my time, Ms. Rivera, Ms. Velazquez, can you talk to me both 
about the pain of separation from parents or the pain that 
young people have? Why don't we start with you, Ms. Rivera, the 
pain that you are experiencing--even though you are over 21?
    Ms. Rivera. Yes, ma'am.
    Ms. Jackson Lee [continuing]. Of not having your mother 
here. I assume she is in Colombia?
    Ms. Rivera. Yes, ma'am.
    Ms. Jackson Lee. You as a citizen have the right to visit. 
But the pain of not being able to have your mother here in the 
United States.
    Ms. Rivera. It's very difficult. It's the little things 
that add up. Birthdays, celebrations, graduations, weddings, 
also to things that, you know, become harder and harder. It's 
having to see my sister, who is unable to visit her, suffer and 
see that the only way she can interact with my mom is through a 
computer camera. So it's incredibly difficult. As I said in my 
testimony, it affected me while I was in school. I had to reach 
out to my college of liberal arts to my counselors and let them 
know what was going on because I could not concentrate. I was a 
college undergrad student trying to understand immigration law, 
which is just about impossible. Filing paperwork. So it's 
just--it's very difficult.
    Ms. Jackson Lee. Ms. Velazquez.
    Ms. Velazquez. I can only imagine what it would be not to 
have my parents with me. My younger brothers, yeah, it would be 
devastating. And the pain in the community exists. We have 
several families in the State of Arkansas that are now battling 
that. And I can only imagine what Hido's parents would feel 
like to leave their 5 U.S. citizen children and then having to 
go back to a place that, you know, they haven't been to in a 
long time. We also have another case in Fort Smith where the 
Hernandez family have two U.S. citizen children, one is 3 years 
old. And their parent is in a detention center, waiting to be 
deported. And every time I see Leticia, I can see the pain in 
her eyes that she has whenever she talks to me about her dad 
and how much she misses him and playing with him. So just the 
thought of not being there, and even at my age, not being there 
with him is terrifying to me.
    Mr. Gowdy. Thank you, Ms. Velazquez. I thank the 
gentlewoman from Texas----
    Ms. Jackson Lee. Let me thank the Chairman very much. And, 
Mr. Chairman, I am yielding back, just saying that Congress' 
duty is to fix these kinds of problems, even if they are pretty 
tough. I thank you and I yield back.
    Mr. Gowdy. The Chair would now recognize the gentlelady 
from California for unanimous consent. And then the gentleman 
from Nevada, who has waited patiently, my good friend Mark 
Amodei.
    Ms. Lofgren. Thank you, Mr. Chairman. I would ask unanimous 
consent that we make a part of the record statements from the 
Congressional Asia-Pacific Island American Caucus, the National 
Immigration Forum, the First Focus Campaign for Children, the 
American Civil Liberties Union, the National Immigrant Justice 
Center, the Asian Americans Advancing Justice, CHIRLA, the 
Anti-defamation League, National Education Association, YWCA, 
and the Church World Service, as well as a statement on 
citizenship from the Evangelical Immigration Table, and a poll 
from last week from the Gallup Organization on immigration as 
seen by Americans.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
 
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   __________

    Mr. Gowdy. The gentleman from Nevada, Mr. Amoodei.
    Mr. Amodei. Thank you, Mr. Chairman. I want to associate 
myself with the remarks of my colleague from Texas, although I 
wish Mr. Gutierrez was still here. I wanted to talk with him on 
the record about teaching people to drive. Since he is not, we 
will skip that part.
    You know, during the course of this hearing you have heard 
things about, ``I don't want my parents left behind.'' ``So 
this doesn't happen again.'' The package, comprehensive, you 
know, in this town, define ``comprehensive.'' And everybody has 
concentrated on what the problem is now, and rightfully so. But 
we don't have that luxury of just concentrating on that. Your 
circumstances have been well represented, and I will tell you 
what, quite frankly, I personally believe the hardest thing for 
anybody to do is go back to the people that they represent, 
whatever the district is, and say we did nothing. Does anybody 
on the panel think that what is going on now is okay and 
nothing, status quo is okay?
    Record should reflect nobody answered in the affirmative. 
Correct? Okay.
    So now let me ask you this: I want to ask you to branch out 
beyond your personal circumstances, wanting your parents 
together, all that other sort of stuff, which is understandable 
in human nature. What was--and I will start with you, Ms. 
Velazquez, do you have any knowledge of what the thought 
process was when your mom, if I recall correctly, I missed part 
of it, said, you know what, I'm going there. And I'm staying 
and I'm taking my 2-year-old, the age doesn't really matter. 
And I am asking the question in the context of, because one of 
the toughest things to justify, because, okay, in 1986 they 
dealt with it. Here we are in 2013, we are going to deal with 
it, hopefully, we should. But now as some of the indication has 
been, so now we are 10 years down the road, 15 year down the 
road. How do you make sure that nobody comes here 15 or 20 
years from now and has to sit where you are and tell the 
stories about that? What is the piece--and with all due 
respect, the border isn't Texas to California. You know, there 
is a gulf and there are a few coasts, and there is that thing 
up there north of Montana called Canada. What is your thought 
on how do you make sure this doesn't happen again? Once we deal 
with this group, any suggestions?
    Ms. Velazquez. Well, I think that's your responsibility, 
Congressman. I think you--you all hold the answer to what we're 
going through.
    Mr. Amodei. Okay. And I appreciate that. But when you come 
and say, I want a comprehensive thing, I want you to deal with 
it, you can't say, but I got nothing to give you on the other 
part. Here's what I want you to do for me. I mean, you can, but 
then you risk whatever we come up with, which I think would 
scare the heck out of you.
    Ms. Rivera?
    Ms. Rivera. Thank you, Congressman. To answer the first 
part of that question, you know, Colombia in the '80's and the 
early '90's was a very scary place to be. You know, my parents 
did what I think any parent would do, what I know I would do 
for my children, is they tried to give us, you know, every 
opportunity. And they wanted to get us out of there because it 
was just so dangerous.
    So to now address the second part of your question, it's 
very difficult to say, you know, how you--you fix this problem. 
But, you know, I know that you guys are incredibly talented and 
I know that you may think that that is a copout, but I really 
think that, you know, sitting down and talking this out you can 
figure it out.
    Mr. Amodei. And thank you for acknowledging that and the 
fact that the folks on the south side of the building should 
have a shot at that and hearings like this and other things, as 
well as the folks from the north side of the building.
    Ms. McHugh, any thoughts? What have other countries done? 
What do you do so that you just don't keep turning the wheel 
and having new groups that are disenfranchised because our 
current system obviously isn't working?
    Ms. McHugh. I'm not involved in a lot of these different 
areas of work in my organization. But you may be aware that we 
have published extensive analyses of both interior and border 
enforcement systems. We have done comparative work looking at 
how other countries are handling these issues. Also we've done 
a great deal of analysis of selections----
    Mr. Amodei. Briefly--I got a yellow light. Briefly, can you 
summarize?
    Ms. McHugh. Yes. We know there are no easy answers to this.
    Mr. Amodei. Thank you for that. It's unanimous so far.
    Mr. Duke. Congressman, thanks for your question. It is the 
great question, how do we not ever come back here again. There 
will probably always be some people here illegally. We're not 
going to ever get hundred percent security at that point. But 
certainly the workplace is a large draw. And if you can put in 
some kind of e-verify for most employment circumstances, that 
certainly is going to deal with a lot of it. We need a way to 
track visas as well so the folks aren't overstaying their 
visas. To me it's offensive that the folks who gave their word 
that they would only be here a certain amount of time have 
chosen to back out on their word and overstayed their visas. To 
me, that's a concern as well. So you should address that as 
well. And then, of course, border security would help as well.
    Mr. Amodei. Thank you very much. Thank you, Mr. Chairman.
    Mr. Gowdy. Thank the gentleman from Nevada.
    The Chair would now recognize himself for 5 minutes of 
questioning.
    Dr. Duke, I made a D in Old Testament, so I never thought 
about trying to take New Testament. But several of my 
colleagues have made reference to the Bible, and I'm almost 
positive that a couple named Joseph and Mary emigrated, 
according to one of the gospels, to Egypt when Herod was 
looking for their son. I guess in the Gospel of Matthew. But I 
want to ask you this, because this is what kind of vexes me 
from an equity or a fairness standpoint. I want you to 
imagine--I never understood why God preferred Esau over Jacob. 
And I never really understood why they killed the fatted calf 
for the prodigal son when the other son had done it exactly 
right, exactly the way he was supposed to do it. He didn't go 
and squander his fortune, he did what his father asked him to 
do. So imagine a couple in Colombia with a daughter every bit 
as bright and engaging and beautiful as Ms. Rivera. And they 
did it the way we asked them to do it. What are the equities of 
jumping anyone ahead of them in line?
    Mr. Duke. Congressman, thanks for the question. It is a 
tough question. And your questions about exactly how to 
understand those particular situations in the Bible are still 
being debated and will be until the Lord returns, I'm sure. So 
you're not alone in trying to sort through some of those 
things.
    I think that the reality is we have a situation that no--
nobody wants but it's a real situation that we're dealing with. 
And we have 11 million people here. We cannot continue to allow 
them to live in the circumstances they are living in. It's not 
right for them, it's not in our country's best interest. So we 
need to address that. If we're going to secure the borders and 
we're going to trap 11 million people here, we better figure 
out some kind of way to stop us from simply consigning them to 
lives of poverty or bare subsistence, and their children and 
their children and their children after them. So it's more a 
practical question I think at that point, what you do folks in 
line trying to get her when you already have 11 million here. 
You could say that you already have 11 million here you have to 
address and those other folks, you know, at least they are 
making a living wherever they are. At least they have some 
degree of support wherever they are rather than us trying to 
drive these other folks out of here.
    So we have to address this situation. We can't simply 
ignore it and act as though it doesn't exist. But when we do 
talk about getting on a path to our legal status, permanent 
legal status and so on, or citizenship, they should get behind 
the line. They should get at the end of the line for everybody 
who already has their paperwork in. For whenever their 
paperwork goes in, it should go in and be active after all of 
these other folks who have already applied in that process. So 
some folks will be a long time in that process unless you want 
to speed up how quickly we can process people for citizenship.
    Mr. Gowdy. Ms. Velazquez, I think all of the witnesses have 
made a reference to 11 million. I hear it everywhere I go as if 
it's a homogenous group, and we know it's not. And you made 
reference several times to the 11 million. Would you agree with 
me that those members of the 11 million who can't pass a 
background check shouldn't be on a path to anything other than 
deportation?
    Ms. Velazquez. Maybe the people that don't pass a 
background check, but I do believe that there should be a 
pathway for the majority of the 11 million.
    Mr. Gowdy. Well, now, that is very different from what you 
said earlier, and that is kind of my point. My point is all 11 
million can't pass any background check. All 11 million of any 
category of people, from preachers to Members of Congress, 
can't pass a background check. So why persist with the talking 
point of 11 million when we know that that's disingenuous? All 
11 million don't want to be citizens. All 11 million can't pass 
a background check. And even if you concede that then we get to 
the details of what the background check is going to look like. 
For instance, if you were sitting where Mr. Amodei is sitting, 
if you have a conviction for domestic violence, should you be 
on a path to citizenship or a path to deportation?
    Ms. Velazquez. Well, I can only argue for my sake and my 
parents' sake----
    Mr. Gowdy. No, no, no, no, no. With all due respect, you 
advocated on behalf of 11 million aspiring Americans. You are 
not a difficult fact pattern. Ms. Rivera is not a difficult 
fact pattern. So the talking point of 11 million aspiring 
Americans, I am not interested in--in that. I am down in the 
details of what does a background check look like? Do you think 
a conviction for domestic violence should disqualify someone 
from being on a path to citizenship or status?
    Ms. Velazquez. I think I'm going back again to that's up to 
you all to decide. And----
    Mr. Gowdy. Well, if it's up to us, then why do I constantly 
hear 11 million if it's one monolithic, homogeneous group? Why? 
I mean, why not just say what you said, which is there are 
subgroups that warrant different levels of scrutiny. For 
instance, children who were brought here with no criminal 
intent. That warrants one level of scrutiny. The parents who 
brought them here who can fashion criminal intent warrants 
another level of scrutiny. Those who have misdemeanor 
convictions have one level of scrutiny. Those who have multiple 
misdemeanor convictions have a different level of scrutiny. 
Those who have felony convictions have a different level of 
scrutiny. Why is that not the more honest response than to talk 
about 11 million aspiring Americans?
    Ms. Velazquez. Well, honestly, I'm in no position to tell 
you who deserves what. And I don't know what you would do. How 
would you decide that 1 percent deserves something that the 
other doesn't.
    Mr. Gowdy. Well, it's not hard for me. I spent 16 years 
prosecuting people for domestic violence. That's a disqualifier 
to me, even though most States consider it a misdemeanor. So 
with all due respect, the devil is in the details.
    Ms. Velazquez. Right.
    Mr. Gowdy. The bright line--you know, people don't have any 
trouble with that. The devil is in the details. I'm out of 
time. I'll just say this on behalf--all four of you were very 
good, persuasive witnesses, even if I don't agree necessarily 
with everything that's said. I think you are here in good 
faith. You contributed to the debate. When I see quotes like I 
did today from someone named Dan Pfeiffer, who apparently works 
for the President. I think it is the same Dan Pfeiffer that 
once said the law is irrelevant. And he tweeted out today that 
our plan is to allow some kids to stay, but deport their 
parents. He summarized this entire debate with that tweet.
    So I want to compliment you and thank you for not being a 
demagogic, self serving political hack, who can't even be 
elected to a parent advisory committee, much less Congress, 
which is what Mr. Pfeiffer is. I want to thank you for not 
being that and understanding these are complex issues where 
reasonable minds can perhaps differ.
    And with that, on behalf of all of us, I thank you for 
contributing to this issue.
    Does the Ranking Member wish to say something in 
conclusion?
    Ms. Lofgren. No. I would just say that I do thank, once 
again, the witnesses for their testimony, and I think that it 
has advanced the cause of justice forward. And you are right, 
these are complicated questions. But I think you are also right 
they are not so complicated that we can't figure them out. And 
so I would just like to pledge once again my interest in 
working with the Chairman to reform the laws. They are a mess 
from top to bottom. And hopefully we can fix them from top to 
bottom.
    And I yield back and thank you for the offer.
    Mr. Gowdy. I will thank the gentlelady.
    Ms. Jackson Lee. Mr. Chairman.
    Mr. Gowdy. Yes.
    Ms. Jackson Lee. I might have a parliamentary inquiry. We 
have had this hearing, we appreciate it. Do you know whether 
there will be a series of hearings? Will we now move to full 
Committee? Or what do we--can we perceive to be the next steps?
    Mr. Gowdy. I appreciate the gentlelady's question, and I 
can't think of anyone less qualified than the lowest Member on 
the Republican side answering it. But I am happy to check with 
Chairman Goodlatte and get you an answer.
    Ms. Jackson Lee. Thank you so very much. We will both do 
so. Thank you, Mr. Chairman. I yield back.
    Mr. Gowdy. I will thank all our witnesses. And with your 
indulgence, I would like to come down there and thank you in 
person. With that, we are adjourned.
    [Whereupon, at 5:13 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
